<html>
<title> - THE PLAN TO DEFEAT ISIS: KEY DECISIONS AND CONSIDERATIONS</title>
<body><pre>[Senate Hearing 115-743]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-743

                 THE PLAN TO DEFEAT ISIS: KEY DECISIONS 
                           AND CONSIDERATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 7, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-614 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

 
  
                      C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1
Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2
Jeffrey, Hon. James, Philip Solondz Distinguished Fellow, The 
  Washington Institute, Washington, DC...........................     4
    Prepared statement...........................................     6
Bash, Jeremy, Managing Director, Beacon Global Strategies LLC, 
  Washington, DC.................................................     9
    Prepared statement...........................................    10

              Additional Material Submitted for the Record

Responses of the Hon. James Jeffrey to Questions Submitted By 
  Senator Todd Young.............................................    48
Responses of Jeremy Bash to Questions Submitted by Senator Todd 
  Young..........................................................    53
Responses of the Hon. James Jeffrey to Questions Submitted By 
  Senator Edward J. Markey.......................................    55
Letter to Secretary of State Tillerson from Senator Todd Young...    59


                             (iii)        

 
       THE PLAN TO DEFEAT ISIS: KEY DECISIONS AND CONSIDERATIONS

                              ----------                              


                       TUESDAY, FEBRUARY 7, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Gardner, Young, Barrasso, Isakson, Portman, Paul, 
Cardin, Menendez, Shaheen, Coons, Murphy, Kaine, Markey, 
Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    We thank our witnesses for being here, and all the Senators 
who are here, and those who will come. I hope your experience 
here today can be informative, as we take stock of our efforts 
against ISIS.
    Last month, President Trump asked for a new plan to defeat 
ISIS. The preliminary draft should be completed by the end of 
this month.
    While the executive branch is looking at new options, I 
think it is a good time for us to take a look at what has been 
accomplished, what remains to be done, and what decisions need 
to be made.
    As the battle for Mosul continues and the preparations for 
Raqqa begin, I hope we can get your perspective on what 
additional steps to defeat ISIS could look like, and with whom 
we should partner.
    The fight in Iraq appears to remain on course, but huge 
questions remain about the future of American influence and 
what role Iran will play in a post-ISIS Iraq.
    Unfortunately, in Syria, the problem has only gotten harder 
with time. And now the Trump administration is faced with 
choosing the least bad option. One decision they must make is 
who to involve in the military campaign.
    Who actually clears Raqqa could have wide-ranging strategic 
consequences, whether it is the Kurds, Kurdish-supported Arabs, 
Turkey and the Syrian opposition, or the Assad regime and its 
allies.
    I criticized the previous administration for a glaring 
disparity between their anti-ISIS efforts and their diplomatic 
efforts to end the Syrian civil war. I would appreciate your 
perspectives on the logic that defeating ISIS without a 
political solution in Syria will simply lead to another ISIS, 
and whether or not it is possible to link the two strategies.
    Finally, it is worth noting that the Department of Defense 
was tasked as the lead agency in developing this strategy. This 
is probably a good moment for us to examine the structure the 
administration is using to lead the coalition and the role of 
the State Department.
    With that, I would like to thank you again for appearing 
before the committee, and I look forward to your testimony, and 
turn to our distinguished ranking member, Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, thank you very much for 
calling this hearing. To me, this is an extremely urgent 
subject for the Senate Foreign Relations Committee, the United 
States Senate, and the United States.
    So I welcome our two witnesses, and I look forward to a 
robust discussion.
    President Trump now faces a key decision point on how he 
will direct the fight against ISIL. Over the past 2 weeks, we 
have all had a chance to see how President Trump handles 
national security issues. I certainly hope that the risky and 
chaotic start we have just seen on how he handled the Muslim 
ban is not an indicator as to how he will handle ISIL.
    Last week, we saw how he abandoned our allies like 
Australia and appeased our enemies like Russia. It also remains 
totally unclear how Mr. Trump's never-ending desire to make 
nice with the Russians, even after they attacked our democratic 
system, will influence his plans in Syria.
    And President Trump's abandonment of our core American 
values with his Muslim ban will also alienate the Muslim allies 
we need to work with the Middle East to fight ISIL.
    Any path forward fighting ISIL brings risks. Increasing 
U.S. boots on the ground, directing U.S. troops to get closer 
to the fight, or changing the rules of engagement, demand an 
assessment of the risks to the U.S. forces and to civilians 
living inside ISIS territory. Arming new groups like YPG in 
Syria must be balanced against Turkish concerns and the desired 
end state in Syria.
    Changing the deepening U.S. involvement in the fight 
against ISIS must be weighed against what we know from past 
experience. U.S. forces on their own in this part of the world 
only inflame resentment and become the target of violent 
extremists.
    There is no sustainable win against ISIS without a long-
term political solution. That means a political settlement that 
ends the civil war in Syria, and removes Bashar al-Assad, and 
ensures that Iraq has a government that is inclusive, 
accountable, and reflective of its citizens' needs.
    Mr. Chairman, every day we hear more about what is 
happening in Syria. Today's report by Amnesty International, 
that up to 13,000 people have been executed in a prison north 
of Damascus in a hidden campaign authorized at the highest 
levels of the Assad regime, is beyond disturbing.
    This stomach-churning report is a must-read for those in 
the Trump administration who want to move forward on 
counterterrorism cooperation with Russia against ISIL. Russia's 
military intervention was explicit to save their man in 
Damascus, Bashar al-Assad.
    This amounts to war crimes, and we cannot be complicitous 
in covering up accountability for war crimes.
    On January 28, President Trump issued National Security 
Presidential Memorandum 3 directing the Department of Defense 
to develop a new plan to defeat ISIS. This directive instructed 
the Defense Department, as the chairman pointed out, to 
collaborate across the U.S. Government, including the State 
Department, the Treasury Department, and the intelligence 
community.
    This should alarm members of the Senate Foreign Relations 
Committee because a plan to defeat ISIS that is viewed 
primarily through a military lens is not going to succeed. We 
need to lead with a solution to the problem, not just a 
military solution.
    If we have learned anything from the experience of the last 
decade, it is that the military fight is not even half of the 
battle. Long-term, sustainable ends to conflict demand 
political agreements; international donors; stabilization 
activities; reconciliation initiatives; development expertise; 
accountable local leadership; and, above all, patient, 
consistent diplomacy and political engagement.
    The State Department must be the leader in our counter-ISIS 
strategy. The counter-ISIS strategy carried out by President 
Obama, including military force, is one line of effort. It is a 
critical line to our effort, to be sure, but just one element 
in a holistic approach.
    Equally important are cutting off terror funding, stopping 
foreign fighter flows, countering ISIS propaganda and online 
recruitment, and providing humanitarian assistance to the 
innocent civilians in neighboring countries impacted by ISIS 
depravity and violence.
    Evidenced by this line of effort and more, President Trump 
has clearly inherited the most capable, experienced people at 
the State Department. I hope he uses them. We have the experts 
there that can help us determine long-term strategy.
    We have made progress in defeating ISIS. We have taken back 
territory. We have been able to deal with circumstances on the 
ground with the local forces. We need to build on that and 
build on the expertise that we have already developed within 
our State Department to make this work.
    But one thing is clear to me and that is, we have to work 
with our allies. I was pleased to see yesterday that President 
Trump pulled back on his hostility toward NATO. That was a good 
sign.
    But threatening the relevancy of the United Nations or 
embarrassing the President of Mexico or abruptly cutting short 
a phone call with the Prime Minister of Australia will only 
isolate America and our ability to really defeat ISIS through 
the type of partnerships that we need globally.
    So I hope that we can address these issues in a partnership 
working with our allies. Australia, by the way, is one of our 
closest allies in our war against ISIS. And I hope that we can 
figure out a way in which this committee can weigh in.
    One thing is clear to me. The Muslim ban is a recruitment 
tool that will be used that will hurt our chances of defeating 
ISIS.
    And no, Mr. President, this is not like some other proposal 
that has been made by previous administrations. This is much 
more comprehensive and has clearly been interpreted and is 
based upon the religion of the individuals, and that alienates 
over 1.7 billion Muslims globally and countries working with us 
in the coalition.
    This ban needs to end, and the Congress needs to speak, and 
I hope this hearing will be the beginning of our debate here in 
this committee as to how we can help in regards to our fight 
against ISIS.
    The Chairman. Are you finished?
    Senator Cardin. Yes.
    The Chairman. I do want to agree on the 13,000 people that 
supposedly have been hung. I think all of us have seen the 
photographs that Caesar presented here, that the Holocaust 
Museum put on display. I know you and I were there for that 
ceremony.
    And I do hope that, at the end of this, we do not forget we 
have a major war criminal on our hands in Syria. And as we move 
through this, he has got to be punished. He has got to be 
brought to trial. He has got to be dealt with in the most 
appropriate way, so I could not agree more.
    I will say that, last week, in meeting with General Flynn, 
the national security adviser, I do think that Mattis and 
Tillerson have made a combine that neither one of them are 
going to come forward with plans that the two of them have not 
agreed to. But I agree that the State Department certainly 
needs to be involved with this.
    So with that, let me introduce our distinguished witnesses. 
Our first witness is the Hon. James Jeffrey, currently with the 
Washington Institute. Ambassador Jeffrey previously served as 
the Ambassador to Iraq, the Ambassador to Turkey, the deputy 
national security adviser to President George W. Bush.
    We thank you so much for being here.
    Our second witness today is Mr. Jeremy Bash, the managing 
director at Beacon Global Strategies, a former chief of staff 
to Leon Panetta at the U.S. Department of Defense and the CIA.
    We want to thank you both for being here. I think you both 
have done this before many times. Your written testimony, 
without objection, will be entered into the record, and if you 
can summarize in about 5 minutes, that would be great. We look 
forward to questions.
    Again, in the order introduced, if you would begin, I would 
appreciate it.
    Ambassador?

      STATEMENT OF THE HON. JAMES JEFFREY, PHILIP SOLONDZ 
 DISTINGUISHED FELLOW, THE WASHINGTON INSTITUTE, WASHINGTON, DC

    Ambassador Jeffrey. Mr. Chairman, Mr. Ranking Member, first 
of all, and members of the committee, thank you very much for 
having us here today. This is a really important and crucial 
issue.
    As you said, our written comments are submitted to the 
record. I will try to summarize them. But frankly, the two of 
you, in your opening statements, hit on most of my top points.
    Number one, the President's directive to move very quickly 
on ISIS with the goal of defeating it is exactly the right 
strategy.
    Number two, this has to be done in conjunction with the 
State Department and Defense Department, because the military 
operation is not the only operation. We will defeat ISIS as a 
state. We will not eliminate it completely, for the same reason 
we have not eliminated Al Qaeda completely. But getting rid of 
it as a state, as a caliphate, is an extremely important step.
    But how we do this politically, as you said, in relation to 
Syria, to Iran, which is possibly an even greater danger in the 
region, with Russia now involved in the region, is crucially 
important. This is a watershed in the region, as we move to 
eliminate in Raqqa and Mosul, equivalent to probably nothing we 
have seen since the surge a decade ago.
    Let us start first on the battle that we have before us, 
because it is not won yet. Mosul is slowly being liberated from 
ISIS, and that will eliminate ISIS, essentially, from Iraq, 
other than some minor terrorist groups. The issue there will be 
to keep it from coming back, as it came back again after its 
predecessor was defeated in 2008 to 2010.
    The Raqqa battle is the bigger battle. And as the chairman 
said, there are several options.
    Using the Kurdish YPG, which was what the Obama 
administration did, has advantages. The problem is it does not 
have the heavy weapons. It is violently opposed by Turkey, and 
Turkey is essential to this battle, its airfields, its 
logistics, its support. Turkey actually has troops in the fight 
against ISIS.
    So I am very concerned about going forward without getting 
the Turks on board. That is possible, as someone who has spent 
9 years in Turkey.
    But it will not be possible until after the early April 
referendum in Turkey about the presidency. For various internal 
reasons, President Erdogan has to take a very tough line on the 
Kurds, until that time. He has been more flexible in the past. 
I think he can be flexible, if he is given a role in Raqqa, in 
the future. So I hope we can look to that.
    Inviting the Russians, Syrians, and Iranians in to be our 
allies in this fight for a dozen reasons, including some you 
just cited, is a very bad idea.
    The Russian military capabilities, frankly, apart from 
carpet-bombing civilians, are not impressive in this campaign 
so far. And the Iranians and Syrians are feared and hated by 
the people of eastern Syria. So we have to be very, very 
careful about that.
    But what is going to happen after we inevitably take Raqqa?
    First of all, speed is important, and that is why I would 
urge the Senate and the administration to consider upping 
significantly the American enablers we have--advisers, 
artillery, attack helicopters.
    But also consider at least some ground forces, not just 
ours but from other NATO forces, in the battalion level, a few 
thousand people at most, to spearhead the attack, because what 
I have seen in the battle in Mosul and the Turks and the battle 
for Al Bab, this is going to be very tough without elite 
forces.
    But what happens on the day after? First of all, there are 
immediate issues of providing relief to the people, ensuring 
that one group does not go after the other group. But so far, 
surprisingly, from what all I have seen in the Middle East, in 
Iraq and to some degree in Syria, that has gone okay.
    It is the longer term we have to watch. We need to be 
present in Syria, and the battle against ISIS gives us an 
opportunity to do so. We have two alliances we need to keep 
steady. First, the Turks, who have essentially a no-fly safe 
zone in the north of Syria, and the Kurds in Rojava, if we can 
work out a way between the two, we will have a presence there, 
and we can use that to leverage pressure on the Syrian 
Government and on the Russians to maintain the Astana 
ceasefire, which is absolutely critical and will be opposed by 
Assad and, frankly, the Iranians, who want a total victory in 
Syria, which is destabilizing for the whole region.
    The other thing is, soon, the battle in Iraq is over. We 
should learn from what happened in 2014, when ISIS returned, 
that it is a mistake for us to get out of that country. Iraq is 
crucial not only to prevent Sunni extremism but also as--I will 
not say a buffer, but as a balancing country to Iran. And that 
requires some sort of American presence, including at least a 
minimal American military training presence. And I hope this 
time we can do it.
    Thank you very much.
    [The prepared statement of Hon. Jeffrey follows:]

            The Prepared Statement of Hon. James F. Jeffrey

    Mr. Chairman, Mr. Ranking Member, Members of the Committee, thank 
you for having me here to discuss this national security issue of the 
upmost significance.
                                summary
    The threats the Islamic State (ISIS) poses to our homeland and 
those of our allies and partners, its destabilizing role throughout the 
Middle East, and the recent success the U.S.-led coalition has had 
against it, all argue for an immediate, intense effort to destroy this 
terrorist scourge as our most urgent priority in the region. Published 
reports and administration statements indicate the Trump administration 
is fully behind this goal.
    But while ISIS is the most urgent priority in the region, it is not 
the only, or even the most dangerous, one. Iranian expansionist 
activity, at times partnered with Russia, poses at least an equal 
security risk to the region and key U.S. interests: stability of 
regional partners, flow of hydrocarbons to the global economy, non-
proliferation and counter-terrorism. Defeating ISIS, while worthy in 
itself, must be done in a manner to reinforce regional stability and 
U.S. interests.
    Today I would like to discuss considerations related to both the 
defeat of ISIS itself, and possible `day after' scenarios, stressing 
how the latter play into U.S. interests, and in turn depend on not only 
whether, but how, and with whom, we defeat ISIS.
    In short, our plan to take Raqqa in Syria, the key remaining 
objective, should be done in conjunction with, rather than in 
opposition to, Turkey. After the Turkish constitutional referendum in 
early April Ankara should be willing, if it understands longer-term 
U.S. goals, to accept additional support for the Syrian Kurdish YPG in 
the Raqqa battle, assuming Turkish equities in Syria are supported. And 
if the United States desires a rapid victory over ISIS, it probably 
will have to commit more supporting forces, and possibly limited ground 
combat formations.
    The destruction of the ISIS `state' in Iraq and Syria, in the 
context of the Syrian civil war, Iran's quest for hegemony, and Russian 
reengagement, will be a watershed in the Middle East equivalent to the 
U.S. march into Iraq, the Iranian revolution, and America's regional 
intervention during the Yom Kippur conflict. Decisions taken over the 
coming year by the United States and others will shape the region for 
decades.
    As U.S. vital regional interests are at stake in the post-ISIS 
scenario, the United States should chose its political-military 
strategy for the defeat of ISIS not only from a military but from a 
political standpoint--to advance a `day after' scenario that keeps the 
United States in the region, maintain our new (YPG) and old (Turkish 
and Iraqi) relationships, push back Iranian ambitions and `manage' an 
inevitable Russian presence.
                            the isis battle
    As Graeme Wood has written in The Atlantic, the unique nature of 
ISIS is based on its status as a ``Caliphate,'' a statelet with a 
population, army, economy, and government, and a claim to the Caliphate 
tradition from Islam's golden age. While ISIS has offshoots in 
ungoverned territory throughout the Muslim world, its unique nature and 
threat flows from its territory in Northwestern Iraq and Eastern Syria, 
centered on Mosul and the ISIS capital, Raqqa. Taking those cities will 
destroy the ISIS ``state'' and defeat ISIS in its current form and 
dramatically reduce its threat to U.S. interests.
    The U.S. led coalition's campaign against these two cities, while 
coordinated, is militarily and politically differentiated. My focus in 
both, while it will touch on military issues, will be the political 
considerations underlying military decisions and goals.
    IRAQ: By most accounts, the battle for West Mosul will take several 
months. The coalition-Iraqi game plan for that campaign is well-
developed and succeeding. Once successful, the only major ISIS presence 
in Iraq will be Hawijah, near Kirkuk, presumably an easy target. As the 
Mosul victory nears, ground maneuvers, especially by the Kurdish 
Peshmerga and the largely Shia Popular Mobilization Forces (PMF), will 
require careful U.S. engagement to avoid clashes and to advance longer-
term U.S. interests in Iraq.
    SYRIA: By all accounts the United States is preparing for a final 
push against Raqqa. But given the tenacity of ISIS defense of other 
cities, capturing Raqqa will be a major undertaking. The United States 
has options to generate forces for such a victory, but each has 
significant political-military implications.
    YPG-led operation: This was the preferred solution of the Obama 
Administration but, according to press accounts, has been challenged by 
the Trump Administration. It foresees an offensive organized around the 
Syrian Democratic Force (SDF), led by the Syrian Kurdish YPG, but with 
a minority of Sunni Arabs. But the SDF has only limited crew-served, 
and little or no heavy, weapons. Urban warfare typically requires 
integrated tank-engineer-infantry forces supported by fires. To develop 
such a combined arms capability the United States would have to provide 
heavy weapons.
    Turkey is opposed to this given the YPG's relationship with the 
Turkish Kurdish insurgent organization, the PKK, engaged in a bitter 
internal conflict with Ankara. Turkey is not only opposed to the United 
States arming the YPG, but also to the YPG moving into Sunni Arab 
areas, particularly those occupying Turkey's entire Syrian border. It 
is difficult to see how Washington could pursue anti-ISIS operations in 
Syria without Turkish bases and other cooperation. In addition, 
according to a draft report by the Washington Institute, all four major 
Arab tribes around Raqqa are to one or another degree at odds with the 
Kurds, raising a question of `the day after' in Raqqa if the city was 
liberated by Kurds, or Arab elements under their control. Finally, a 
largely YPG victory over ISIS in Raqqa and the expansion of the YPG 
over a large swath of Arab territory, as now seen in the city of 
Manbic, has troubling implications for regional arrangements post-ISIS, 
including possible YPG cooperation with Iran and Assad.
    Turkish Alliance: The Turks have offered to either lead or support 
a coalition assault on Raqqa using their Free Syrian Army (FSA), 
largely Arab allies, along with the Turkish armor-infantry taskforce in 
northern Syria. According to reporting in the Washington Post February 
2, the Turks are not seen as capable of carrying out this mission 
themselves, and their stalled anti-ISIS offensive in al Bab strengthens 
such an assessment. While the same Washington Institute report suggests 
that the Raqqa tribes would be less antagonistic to a Turkish presence, 
an expanded Turkish military role could be problematic for both the YPG 
and the Assad-Iran-Russia coalition.
    Combination: A joint effort on two fronts by the Turks/FSA and YPG/
SDF would put more military pressure on ISIS and potentially calm 
Turkey's concerns about the YPG. Such a joint operation would be easier 
for the United States politically than throwing its lot with a single 
YPG or Turkish-led offensive, but would still require delicate 
diplomacy. Turkey would need assurances on weapons to the YPG, and how 
far YPG forces would move into Arab territory. However, while the YPG's 
links with the PKK make it a threat to Turkey, part of President 
Erdogan's hostility to the PKK and thus YPG stems from his political 
alliance to win an early April Constitutional Amendment referendum. 
Once that is behind him, he may be more flexible with the PKK and YPG, 
as he was before Summer 2015. The YPG, in turn, would require 
assurances that its core Kurdish territory would not be pressured by 
Turkey.
    Russian-Syrian-Iranian Support: The military capabilities of this 
coalition are not apparent. Russian airpower routinely targets civilian 
populations and lacks precision weapons. It is hard to see a military 
advantage it brings which could not be met by a minor increase in 
Coalition aircraft. Likewise, Syrian and Iranian surrogate infantry 
capabilities are not impressive, and employing them in Sunni Arab areas 
is risky. Moreover, unless it is clear that the United States, with 
whatever above option it chooses, cannot take Raqqa, then the benefits 
of recruiting Russia, Iran and Assad must be balanced against their 
`sharing' a victory that the United States could obtain without them. 
On the other hand, acceding to a token Russian role against Raqqa, or 
more intensive intelligence sharing and air tasking coordination with 
Moscow, could complement efforts described below aimed at Iran.
    U.S. and NATO forces: One reason for recent success against ISIS 
has been a loosening of restrictions, and personnel/equipment ceilings, 
on U.S. force `enablers' (Joint Terminal Attack Coordinators--JTAC), 
advisory teams, attack helicopters, artillery, and the rules of 
engagement they operate under. Reportedly a further loosening is under 
review in DoD, and that makes sense. A more decisive step would be the 
introduction of limited U.S. and other NATO elite ground combat forces 
in direct combat. In particular a relatively small (several thousand 
strong) U.S. armor contingent could be a decisive force multiplier with 
risk of casualties limited. From a political standpoint, a more robust 
U.S. ground presence would reassure the Turks, YPG, and residents of 
Raqqa about U.S. commitment and potentially increase their receptivity 
to U.S. initiatives.
                             the day after
    Once Mosul and Raqqa have been liberated, and the Caliphate 
destroyed, the United States should engage diplomatically and 
militarily to ensure that outcomes in both Syria and Iraq are 
compatible with U.S. interests, especially the containment of Iran. 
This task has both `immediate' and `long term' aspects.
    The immediate goals are relief to liberated populations and 
protection of civilians against ill-disciplined victorious factions. 
Generally this effort has been successful in Iraq and on a smaller 
scale Syria, so should not require extensive new U.S. involvement. But 
governance and security decisions taken immediately will have an impact 
on the attitudes of the population towards their liberators, and if 
ill-considered could encourage a return of ISIS or al Qaeda. This is 
obviously of interest to the United States.
    The longer-term outcomes of the defeat of ISIS are of great import 
to the United States, as noted in the summary. Apart from preventing a 
new descent into chaos or extremist control, the U.S. interest for this 
``Syria-Iraq theater'' is to preserve Iraqi unity and independence, 
uphold the Astana Syrian cease fire, limit Iranian influence in Iraq, 
react to Russia's regional expansion, and reconcile Turkey and the YPG.
    To avoid any Syrian-Iranian effort to break the Astana ceasefire 
and achieve a total victory over the opposition, the United States 
should support the Turkish zone in Northern Syria, the Rojava and Afrin 
YPG enclaves, and a `free zone' around Raqqa, including with some 
temporary U.S. military training and liaison detachments inside Syria. 
Reconciliation between Turkey and the YPG (and potentially the PKK) 
would reinforce these efforts. The option of arming the FSA must stay 
on the table. Such conditions offer the best chance of splitting Russia 
off from Iran and Syria.
    The U.S. military should press for a `stay-behind' train and 
liaison presence of several thousand troops in Iraq, supporting both 
Kurdish Peshmerga and Iraqi regular military forces. This likely will 
require direct communications and a mix of `carrots and sticks' with 
the Iranians, and with an inevitable risk of Iran lashing out at U.S. 
forces there.
    The above steps represent an initial political-military post-
conflict `shaping of the environment' to balance the various regional 
actors, restore partners' credibility in U.S. military success and 
commitments, and buy time for a more comprehensive policy towards the 
region.
    The Chairman. Thank you.
    Mr. Bash?

  STATEMENT OF JEREMY BASH, MANAGING DIRECTOR, BEACON GLOBAL 
                 STRATEGIES LLC, WASHINGTON, DC

    Mr. Bash. Mr. Chairman, distinguished Ranking Member Mr. 
Cardin, members of the committee, and great public servant 
Ambassador Jeffrey, I come at this issue having seen 
counterterrorism and military operations through the prism of 
those who led them at the CIA and the Defense Department.
    And I think here is the bottom line. We have been talking 
about Syria. We have been talking about Iraq. ISIS is a global 
threat. ISIS is a global challenge. That is why I believe we 
need a global, comprehensive strategy to defeat ISIS and 
protect American national security interests.
    This challenge is so urgent, so complicated, that, in my 
view, the only way to accomplish it is to simultaneously use 
the full measure of our diplomatic, military, law enforcement, 
intelligence, economic, and public diplomacy efforts.
    Now, let me make three quick points about the current 
campaign, and Ambassador Jeffrey hit on some of them.
    First, I think the campaign against ISIS in Mosul and in 
Raqqa should be intensified. What does intensification look 
like? Greater intelligence resources to track ISIS planners; 
increased pace of airstrikes, particularly in Raqqa; training 
and equipping those forces on the ground who can deny ISIS a 
safe haven.
    Point two, on the global front, we have to stay on the 
offensive against ISIS everywhere. And I should also add Al 
Qaeda. I know that is not the focus of this hearing, but let us 
not focus--let us not lose sight of the important role that Al 
Qaeda plays as well.
    ISIS, we have to operate--they operate in the Sahel, to 
Europe, to South Asia. And when American airpower is necessary, 
as it was recently in Libya, I believe we should deploy it 
without hesitation.
    But in many cases, our work is going to entail the less 
headline-grabbing activities: information-sharing, data 
correlation, intelligence training, law enforcement training, 
and diplomacy.
    Take Europe, for example. There, we must keep our focus on 
the travel of foreign fighters, work with our European allies 
and partners. In most areas of the world, the main levers of 
U.S. power will be this intelligence cooperation, the day-to-
day diplomacy. And that is why our campaign cannot, in my view, 
be globally led by the military alone.
    Point three, we must counter ISIS's use of social media, 
Twitter, Telegram, and other outlets that they use for their 
propaganda purposes. As this committee has recognized, 
propaganda is an accelerant on the process of radicalization.
    In that vein, our efforts should be geared toward working 
with Muslim leaders here in the United States and in Muslim-
majority countries from Africa to the gulf to Southeast Asia, 
to counter ISIS's narrative.
    Turning now to the current administration's already stated 
plans, and although the administration is only about 3 weeks 
old, it actually has moved aggressively in some areas with 
regards to counter-ISIS policy. I strongly support the 
President's decision to conduct a quick review of the anti-ISIS 
campaign. We do not want our momentum to stall.
    However, I think there are some areas where I think the 
administration's early steps warrant some adjustment.
    First, we must make clear that we support our allies. They 
are taking fire from ISIS at this very hour. For example, 
Australia--Australia has fought with us in every war since 
World War II. They are the second largest troop contributor to 
the counter-ISIS effort. We have to thank Australia every 
chance we get.
    We also need the support of our NATO allies, and there will 
be an opportunity later this spring for the President to make 
that case clearly himself when he attends the NATO summit.
    Second, we should ensure that diplomacy is on an equal 
footing with military planning. We referenced the 28 January 
directive. A comprehensive global strategy requires that the 
State Department be on equal footing with the Defense 
Department.
    Third, in my view, we should repeal the Muslim-only ban, 
and I say this strictly from a national security perspective.
    Counterterrorism requires focus. If you put an entire 
civilian populace under suspicion, you are inevitably going to 
take your eye off the true threats. And worse, we have handed 
ISIS, in my view, the ultimate recruiting tool.
    Fourth, we should disavow taking their oil or torture. 
These play into the worst fears of the very people we are 
trying to enlist to support our efforts.
    Finally, I agree with Ambassador Jeffrey. I would not 
outsource the counter-ISIS campaign to Russia or to Iran or to 
Assad. This is a very dangerous idea. Russia and Syria have 
conducted hideous crimes, in my view. They liquefied the town 
of Aleppo in a scene too horrible to allow it to be shown on my 
own television in my living room when young children were 
present.
    Russia's misdeeds cannot be trusted, and the 
administration, I believe, will inevitably come to this 
conclusion after a period of time.
    So, in conclusion, Mr. Chairman, the counter-ISIS campaign 
has made important progress. ISIS has lost more than half its 
territory. Many of its senior leaders have been taken off the 
battlefield. They are being squeezed.
    But we cannot and should not be complacent. Now is the time 
to accelerate our campaign, intensify our efforts, and hasten 
the defeat of ISIS on a global scale.
    Thank you very much.
    [The prepared statement of Mr. Bash follows:]

                 Prepared Statement of Jeremy Bash \1\

    Mr. Chairman, Ranking Member Cardin, Distinguished Members of the 
Committee, I am pleased to appear before you today, alongside one of 
our country's great public servants, Ambassador James Jeffrey.
    I come at this issue having seen counterterrorism campaigns and 
military operations through the prism of those who led those efforts at 
the Central Intelligence Agency and the Pentagon. In addition to 
developing and executing these missions, it was the role of these 
senior leaders to advise the President on the most fateful decisions a 
President makes: whether to send our women and men into harm's way. A 
President must be able to avail himself of information, facts, 
expertise, and candid advice. From what I observed, the Commander in 
Chief simply cannot do his job of keeping our country safe without 
these critical inputs. Hearings like these provide one of those 
critical inputs.
    Decisions made in the White House Situation Room have enormous 
consequences. I commend President Trump for taking the time last week 
to travel to Dover Air Force Base to pay his respects to one of our 
fallen heroes. I have made that trip myself and seen the bravery of the 
family members whose loved ones we welcomed home. I do not think it is 
possible to understand the stakes of these decisions until you see the 
faces of the mothers and fathers, siblings and spouses, and most 
poignantly, the young children of those who sacrifice everything for 
our nation.
    During my decade in government, we witnessed many false starts and 
missteps in the effort to take on Al Qaeda--in Iraq, in the Arabian 
Peninsula, in the Maghreb, and in Afghanistan and Pakistan. But over 
time, we developed strategies to disrupt, dismantle and defeat the 
senior leadership of Al Qaeda, stopping specific external plots, and 
denying them the ability to plan and execute another large-scale attack 
on our homeland. I believe there are lessons to be learned from both 
the failures and the successes that can inform the plan against ISIS.
    What is needed today is a comprehensive strategy to defeat ISIS and 
protect American national security interests.
    I use the term ``comprehensive strategy'' because this challenge is 
so urgent and yet so complex that, in my view, the only way to 
accomplish all of our objectives simultaneously is to employ the full 
measure of our diplomatic, intelligence, military, law enforcement, 
economic, and public diplomacy efforts.
    I want to focus my testimony on four areas:
    First, the campaign in Syria and Iraq;
    Second, the global hunt for ISIS;
    Third, the effort to counter ISIS propaganda, primarily online; and
    Fourth, adjustments to the current approach against ISIS.
                       campaign in syria and iraq
    The United States-led counter-ISIS campaign in Mosul, Iraq, and in 
Raqqa, Syria, should be intensified to make it even harder for ISIS to 
plan external operations. Intensification requires three elements:
    <all> First, we should devote greater intelligence resources to 
tracking ISIS senior planners--their whereabouts, their communications 
practices, and their ties to cells or individuals in Europe, Asia, or 
the United States. I would urge any new Administration to conduct a 
searching review of our intelligence posture against ISIS senior 
leaders and make recommendations to upgrade that posture.
    <all> This is particularly important in light of the Feb. 4, 2017 
article in the New York Times that revealed that ISIS leaders were in 
direct communication with operatives in 10 out of the 40 attacks that 
occurred outside of the so-called caliphate. In other words, a large 
portion of attacks thought to be ``lone wolf'' attacks had an actual 
operational connection to ISIS in Syria.
    <all> Second, we should increase the pace of air strikes against 
ISIS targets, particularly in Raqqa. We have hit ISIS with over 17,000 
airstrikes--including nearly 7,000 in Syria--since Operation Inherent 
Resolve began. But we need more pressure. These strikes are necessary 
to destroy the command-and- control infrastructure of ISIS. These 
strikes also force ISIS commanders to choose between keeping their head 
down or communicating with each other. We employed this strategy to 
great effect from 2008-2012 against Al Qaeda senior leaders along the 
Afghanistan-Pakistan border. We saw many plots stopped dead in their 
tracks once air strikes took out the operational leader of the plot.
    <all> Third, we should continue to train and equip those forces on 
the ground who can deny ISIS a safehaven. Training and equipping local 
forces are necessary tools to avoid U.S. casualties and ensure that 
counter-terrorist operations are not seen as U.S. efforts to impose a 
solution from afar or plunder their natural resources. In Iraq, the 
Iraqi military units have retaken about half of Mosul. We must continue 
to work with the Iraqi military to finish the Mosul campaign. In Syria, 
we should fund, train, and provide lethal offensive equipment to the 
Syrian Defense Forces (SDF). The SDF represent our best chance to take 
back ground in Raqqa.
    <bullet> I know there is not unanimity on this point. While this 
option would have some near-term costs (such as creating friction with 
Turkey), it must be weighed against the alternatives. Other forces in 
the area are far less capable and will take too much time to mature. 
And doing nothing is not an option, for as long as ISIS feels 
comfortable in Raqqa, they will continue to look for ways to export 
their terror. A successful operation to liberate Raqqa will require a 
robust effort by Secretary Tillerson and his team to manage Ankara's 
concerns.
    <bullet> One of the reasons that Assad must go is because he will 
never allow a moderate opposition to exist in his country. He has 
relentlessly attacked any moderate Syrian group, under the banner of 
counterterrorism. He enjoys protection and support from Iran and 
Russia. Keeping him in power will not help defeat ISIS; it will 
maintain the status quo of a Syria in chaos. ISIS, Al Qaeda and other 
terrorist groups will thrive in that chaos.
  campaign to track down isis, al qaeda and their recruits world-wide
    Intensification will put pressure on ISIS's strongholds in Syria 
and Iraq. But the threat does not end there. We must stay on the 
offensive everywhere ISIS or Al Qaeda operates, from the Sahel to 
Europe to South Asia. These global efforts require coupling United 
States capabilities with those of our allies and partners. We are 
working with the French in Mali. We are working with African Union-led 
forces in Somalia. We are working with key Gulf partners in Yemen. When 
American airpower is necessary--as it was recently in Libya to degrade 
an ISIS stronghold 1A\2\--we must deploy it without hesitation. But in 
many cases, our work is going to entail the less headline-grabbing 
activities such as information-sharing, data correlation, and law 
enforcement and intelligence training.
    In Europe, where ISIS has attacked with deadly effect, we must keep 
our focus on the travel of foreign fighters, and work 24/7 with our 
European allies and partners to track potential extremists, penetrate 
the plots, and stop them before they hard innocent civilians. We must 
strengthen our relationships in Europe and help them build their 
counterterrorism capabilities.
    In some areas of the world, such as Libya and Somalia, we will be 
able to use air strikes and limited ground troops from the Special 
Operations Forces. But in most areas of world--Europe, India, and 
Asia--the main levers of U.S. power will be intelligence cooperation 
and diplomacy. That is why our campaign cannot be led by the military 
alone.
   campaign to provide an alternative narrative to isis's propaganda
    Perhaps more important to ISIS than a physical caliphate is a 
virtual caliphate they have tried to create through their propaganda 
and incitement, particularly on social media. ISIS's use of Twitter, 
Telegram, and other social media outlets is well known. Of course, ISIS 
claims in its propaganda to be representing the true nature of Islam, 
but it is, in fact, perverting Islam.\3\
    A recent study co-sponsored by the University of Chicago looked at 
the 104 individuals in the U.S. who the Department of Justice charged 
with ISIS-related crimes from 2014-2016.\4\ Two-thirds went to college. 
Three-quarters had jobs or were in school. Many of these people had a 
great deal to live for, but they were radicalized by terrorist 
propaganda. Nearly 85 percent had exposure to propaganda videos, either 
by ISIS or by Al Qaeda. Propaganda is an accelerant on the process of 
radicalization.
    American efforts to counter the propaganda of terrorists have been 
met with mixed results. Fundamentally, the voices that will do the most 
to discredit ISIS are voices from within Islam itself. Our efforts 
should be geared toward working with Muslim leaders here in the U.S. 
and Muslim-majority countries from Africa to the Gulf to Southeast Asia 
to counter ISIS's narrative. When the American government is shown to 
be behind these messages, they are apt to be disregarded or even 
disbelieved.
    I have been impressed with the energy and focus of the State 
Department's Global Engagement Center and would urge Congress to 
continue support for this activity.
          adjustments to the current administration's approach
    Although the new Administration is less than three weeks old, it 
has already moved forward with several aggressive policy approaches 
that will have an impact on the ISIS campaign. I strongly support the 
President's decision to conduct a quick review of the anti-ISIS 
campaign. We do not want our momentum in this campaign to stall, and 
our allies and partners on the ground are awaiting the results of this 
review. In other areas, however, I would seek adjustments to the 
Administration's current course. My recommendations for the new 
Administration are as follows:
    1) Support our allies. Our allies in the anti-ISIS coalition are 
working very hard to stop the next ISIS attack. We should stand by 
them. For example, Australia has fought with us in every war since WWII 
and is the second-largest contributor of troops to the counter-ISIS 
effort. We should be thanking Australia every chance we get because we 
need them in the fight that is currently underway. We also will need 
the support of our NATO Allies, who continue to play a role in training 
and equipping forces confronting ISIS. President Trump's decision to 
attend the NATO Summit in May is the right decision.
    2) Ensure that diplomacy is on equal footing with military 
planning. The Presidential Memorandum of January 28 was addressed to 
all relevant departments and agencies. The memorandum, in my view, 
correctly catalogued ISIS's heinous record of depravity and the attacks 
inside the U.S. that can be traced to ISIS. The memorandum goes on to 
call for ``comprehensive'' strategy and plans for the defeat of ISIS. I 
agree that a comprehensive strategy is required.
    But the memorandum directs the Defense Department to develop the 
Plan. The State Department, the Director of National Intelligence, and 
the Joint Chiefs of Staff are directed to provide input and collaborate 
with the Defense Department. As noted above, a comprehensive strategy 
requires that diplomatic efforts be treated just as importantly as the 
military efforts. The State Department and the Defense Department 
should be tasked to develop the plan together. This is a small but 
important fix. As this Committee appreciates, the solution in Syria is 
not going to be found solely through military power. Military power is 
necessary to stopping ISIS by force, but it is insufficient for the 
broader effort to end the war in Syria or to conduct the global hunt 
for ISIS operatives.
    3) Repeal the Muslim-only ban. Counterterrorism missions require 
focus. They require acquisition of specific time-sensitive information 
that allow plots to be stopped. They require correlation of data with 
real-time intelligence to screen those who would seek to do us harm. 
When intelligence or law enforcement officials are required to put 
entire civilian populations under suspicion, they take their eye off 
real threats. Furthermore, by enacting a Muslim-only ban, we have 
handed ISIS the ultimate recruiting tool. ISIS has already been 
leveraging this propaganda online. A main theme of ISIS propaganda is, 
in effect, ``look at how America is treating its own Muslims.'' Given 
that thousands of students from the seven countries were affected, 
given that Muslim families were separated, given that lawful permanent 
residents were prohibited from entering the country in which they live 
lawfully and permanently, ISIS has been given a tailor-made message for 
its theme that America does not treat its own Muslim population on par 
with its Christian population.
    Late Sunday evening, 10 former national security officials, 
including two former Secretaries of State, a former Secretary of 
Defense, four former heads of the Central Intelligence Agency, a 
Secretary of Homeland Security, and senior National Security Council 
officials, filed a declaration with the Ninth Circuit Court of Appeals 
stating that the ban would not make the country safer from terrorism 
and would, in fact, undermine those efforts.\5\ Those officials have 
shouldered the solemn responsibility of protecting the country from 
terrorism, and I agree with them that this ban cannot be justified on 
national security grounds.
    4) Disavow `taking their oil' and torture. Threatening to take 
Iraq's oil or expressing support for torture plays into the worst fears 
of the people we are trying to win over to our cause. It thus 
undermines the brave and heroic work conducted every day by women and 
men in the military, the diplomatic core, the intelligence and homeland 
security community, and the Muslims who fight alongside us.
    5) Do not trust Russia to handle ISIS for us. Outsourcing to Russia 
the counter-ISIS effort in Syria is a dangerous idea that runs counter 
to fundamental American interests and values. Russia lacks the 
professionalism, the training, and political will to cooperate with us 
in any serious way. Russia is not seeking cooperation with the United 
States, but instead has worked consistently to undermine U.S. efforts 
in Syria and the Middle East. The State Department and the Pentagon 
tested the proposition that U.S. could work with Russia in Syria over 
the past six months, and the test failed. Putin's Russia has sought to 
use the Syria conflict as a way to end Russia's isolation from Ukraine, 
bolster its last remaining foothold in the Middle East, undermine U.S. 
influence in the region, and showcase its military improvements. Russia 
has played their own game, which was to keep Bashar al-Assad in power 
at all costs. The result is that Russia and Syria continue to kill 
moderate Syrians in the name of counter-terrorism. They liquefied the 
town of Aleppo, Syria, in a scene too horrible to allow to be shown on 
TV in our living room when young children were present. Russia has 
consolidated its position in Syria and will continue to work with its 
Iranian allies to forestall American influence and interests in the 
region. Russia's misdeeds have shown that they cannot be trusted and 
the Administration will inevitably come to this conclusion after a 
period of time.
                               conclusion
    The counter-ISIS campaign has made important progress in both 
taking terrorists off of the battlefield and in liberating civilian 
populations. ISIS has lost more than half its territory. ISIS no longer 
controls most major population centers. Its ability to recruit is 
getting more difficult. Many of its senior leaders have been removed 
from the battlefield. ISIS is being squeezed. But we cannot and should 
not be complacent. Now is the time to accelerate the campaign, 
intensify our efforts, and hasten the defeat of ISIS so that it no 
longer threatens us.
    I am pleased to answer any questions that you may have.

------------------
Notes

    \1\ Former Chief of Staff, Department of Defense under Secretary 
Leon Panetta; former Chief of Staff, Central Intelligence Agency under 
Director Leon Panetta; former Chief Counsel, House Permanent Select 
Committee on Intelligence; current Managing Director, Beacon Global 
Strategies.
    \2\ http://www.cnn.com/2017/01/19/politics/us-airstrikes-libya-
isis/
    \3\ For that reason, I prefer not to use the term ``Islamic,'' lest 
it legitimate their efforts; I prefer ``Islamist,'' or simply 
``terrorist.''
    \4\ See Trump's Travel Ban Misses the True Threat: Homegrown 
Terrorism by Michael Morell, foreignpolicy.com, Feb. 2, 2017 (citing a 
study from the Chicago Project on Security and Threats.)
    \5\ http://cdn.ca9.uscourts.gov/datastore/general/2017/02/06/17-
35105%20opposition%20exhibit.pdf

    The Chairman. Well, thank you both. I am going to ask one 
question and reserve the rest of my time.
    But it is interesting. We have talked about the Kurds. We 
talked about the Kurdish-supported Arabs. We talked about 
Turkey and Syrian opposition. We talked about the Assad regime 
and its allies. You referred to American presence. You did not 
yet.
    So tell us. What is the U.S. role in this?
    Ambassador Jeffrey. It is a pretty complicated single 
question, Mr. Chairman.
    The U.S. role, first of all----
    The Chairman. In Raqqa. In Raqqa.
    Ambassador Jeffrey. In Raqqa.
    The Chairman. In Raqqa, what is the U.S. role?
    Ambassador Jeffrey. The U.S., as the head of a coalition, 
has the overall command and control of the various operations 
being conducted now by what is called the Syrian Democratic 
Forces, which is, essentially, largely----
    The Chairman. The Kurds and Arabs.
    Ambassador Jeffrey. And a few Arabs.
    And the U.S. has people embedded with them, coordinates 
with them. It has not really given the Kurds weapons. It has 
given some light weapons to the Arab component of the SDF.
    And so, basically, it is seen as the overall military 
campaign against ISIS, focused on ISIS as a state, and Mosul 
and Raqqa. And this is essentially the western side of the 
offensive.
    The question is, given the United States' list of allies in 
the region, including Turkey, how can we ensure the maximum 
rapid defeat of ISIS and the taking of Raqqa? And that raises 
questions about who our allies are and how we coordinate all of 
these folks, because while many of them agree on fighting ISIS, 
they do not agree on each other, sir.
    The Chairman. Well, it is the question. And no offense, it 
has not been answered.
    So, Mr. Bash, I am not trying to be offensive here. It 
seems it is the question everybody is dancing around, for lots 
of reasons. But you mentioned not outsourcing it to all these 
people, so what does that mean?
    Mr. Bash. Three aspects of the U.S. role. First, 
intelligence-gathering, human intelligence, signal intelligence 
collection; second----
    The Chairman. I am not asking--I want to know what it means 
to not outsource it? Gathering intelligence is not taking 
Raqqa. Please be specific with your answer.
    Mr. Bash. Forward air controllers by U.S. special 
operations forces.
    And the third element I believe would be training, funding, 
providing lethal offensive equipment to the Syrian Democratic 
Forces.
    The Chairman. And that would be--those are the only people 
that we should be in coordination with, not the Turks.
    Mr. Bash. Well, of course, I think we have to dialogue with 
the Turks, because, as Ambassador Jeffrey noted, we have to 
have them on board, ultimately, for our efforts there.
    Ambassador Jeffrey. Mr. Chairman, I can add to my answer. 
We do need the Turks in the fight. We need two parallel fronts, 
I believe, for political reasons, and possibly for military.
    Again, I think we need at least some ground combat American 
troops to support the other forces we have in there, if we want 
this to go quickly and if we want to have some influence on 
what folks do after the day.
    The Russians put some of their elite special forces troops 
in a combat as opposed to advisory role. They did not get in a 
quagmire, and they had considerable success.
    The Chairman. Do you agree with that?
    Mr. Bash. I do believe we will need some of our special 
operations forces on the ground, yes.
    The Chairman. And those would be ground troops then?
    Mr. Bash. Well, they would be troops, U.S. troops. Whether 
they would conduct direct action missions or they would be in 
an advise and assist role, and assisting the local elements, I 
think we would have to hear from the commanders on the ground 
that will be most affected.
    But I would have no problem with some small number of U.S. 
special operations forces----
    The Chairman. Do you get the sense that the Pentagon will 
recommend having U.S. forces on the ground in Raqqa?
    Ambassador Jeffrey. The Pentagon, sir, I believe, from my 
experience there, and Jeremy has worked there and I have worked 
with it for 50 years, basically takes the mission that the 
President and the Congress gives it and then turns it into 
options.
    It is hard for me to believe, if you let that process work 
out and you say we want to destroy ISIS as a state, we want to 
do this quickly, and we want to have influence on the ground 
with our allies afterward, that you would not at least consider 
a small element of U.S. ground troops.
    And I will be specific. I am talking maneuver battalions, 
perhaps an armored battalion. You saw how effective tanks have 
been in Mosul with the Iraqis against ISIS. Who is going to 
provide the armor in Raqqa?
    I would say we need to look at that very carefully.
    The Chairman. Thank you. I had known you had made those 
comments in the past and was just trying to tease that out.
    I just want to say, we are working through all kinds of 
proxies here. And it is very difficult to control what proxies 
do. And I mean, it is the one question I think that really is 
not being discussed as openly or as candidly--I know it is 
going to be discussed at one point, at some point. So that is 
why I am asking the question.
    Ambassador Jeffrey. With my experience, including 45 years 
ago in uniform, a few American troops on the ground up there 
with the people who are doing the fighting have not only a 
tremendous multiplier effect on the military effectiveness, 
they can win the confidence and the trust of the people on the 
ground. And that has a huge impact on the political side of 
things, as well as the military.
    The Chairman. Thank you so much.
    Senator Cardin?
    Senator Cardin. Mr. Chairman, thank you for that line of 
questioning. I think it is extremely helpful.
    And it really underscores my concern with the Department of 
Defense being the lead rather than the State Department, 
because, Ambassador Jeffrey, I think you answered the question 
as the Department of Defense will answer the question. You have 
a military mission. These are the options. The President 
selects one of those military options. And, yes, we have 
immediate success on the military operation.
    But long term, we do not have a solution, and we are back 
to where we were, in a long process with perhaps emboldening 
the recruitment of extremists.
    So this is a complicated situation. No one denies that. We 
welcome the review by the Trump administration. We are dealing 
with the realities that Russia and Iran are in Syria. And as 
both of you pointed out, we cannot deal with Russia in Iran, 
and I agree with that completely. But they are there, so how do 
we frame a response with the realities of Russia in Iran?
    We have coalition partners that have different priorities 
and strategies than we do. Turkey has a different strategy. 
Saudi Arabia has a different priority. How do we deal with the 
realities of our coalition partners?
    So there is no easy answer. My concerns are the risks that 
you both brought out of more American troops on the ground. 
What does that mean? Or if we are talking about--and can we 
control the numbers, when we start with a small number and the 
mission requires additional military support and America has 
the strongest military.
    Are we going down a path that is going to lead to a 
significant increase in our military commitment on the ground, 
which we know leads to long-term challenges that are hard to 
overcome?
    And secondly, if we are not on the ground and we are 
supporting military operations, and we see large civilian 
casualties, does that add to our challenges of long-term 
success in the region, since we have delegated that to the 
opposition or troops that may not be as sensitive to what 
happens with civilian casualties?
    Any comments either one of you have about that observation? 
How do you overcome that? How do we ensure that we are not 
going down a path of major increase in U.S. presence through 
ground troops, which has historically proven to be 
counterproductive, or we are complicit in a large number of 
civilian casualties?
    Ambassador Jeffrey. I share your concern, Senator, having 
spent years in Vietnam and Iraq, classic examples of being 
bogged down in conflicts.
    First of all, when I said you give DOD a mission and it 
will rack and stack the options, I am talking about the 
military side of the mission, and that is correct. That is not 
the whole mission and I know----
    Senator Cardin. But they are being placed in the lead here, 
which has me concerned.
    Ambassador Jeffrey. I realize that. But the person who is 
being placed in the lead, Secretary Mattis, who I have had many 
experiences with in both tours in Iraq, is someone who knows 
the political side of things and knows he needs that political 
battle buddy, if you will, just like Crocker and Petraeus a 
decade ago on the surge, so I think that you will get that.
    But still, from the military side of it, there is a 
military component to this, and there are various military 
solutions.
    Inserting more American troops, as you said, raises 
political as well as military and questions of casualties, but 
it can cut both ways. If you give the U.S. military a concrete 
military goal, be it liberating Kuwait in 1990 or, for that 
matter, taking down Saddam in 2003, the military is able to 
generate the forces and do it.
    The question is the political question of the day after. We 
had a pretty good but not complete answer in 1991. We did not 
have a good answer in 2003. And by default, we passed that on 
to the military, and we all know, in this chamber, what 
happened.
    That is something I would be absolutely opposed to. But 
that should not force us to go back and say we cannot even use 
ground forces for military missions. The point is we cannot use 
ground forces for armed nation-building, sir.
    Senator Cardin. Ambassador Jeffrey, I agree with your 
point. I have all the confidence in our military carrying out a 
military mission. And I want Mr. Bash to respond.
    But also, if you could, include in your answer how the 
rumored executive order dealing with black sites by the 
administration, and the executive order dealing with 
immigration and refugees, how does that play into our 
strategies in regards to Syria?
    Mr. Bash. On detention and interrogation, we have not 
engaged in enhanced interrogation or employed those black 
sites----
    Senator Cardin. What if there was an executive order that 
led us down that path?
    Mr. Bash. Right. That is my point, Mr. Ranking Member, 
which is we have not employed those since President Bush--not 
President Obama--President Bush emptied the black sites in 
2006. And now, 11 years later, we have been actually able to 
protect our country from a large-scale terrorist attack.
    So I think those tactics are totally unnecessary, and I 
think it would be a huge mistake for the administration to 
return to enhanced interrogation or, as the President calls it, 
torture, and detention in black sites.
    On the issue of U.S. forces on the ground, look, I think we 
can learn a lot of lessons from taking out Al Qaeda's--
decimating Al Qaeda's senior leadership along the Afghanistan-
Pakistan border, where we did not have a lot of ground troops 
that we could use.
    We used a lot of intelligence and a lot of precision 
airstrikes. We were able to basically suppress them and prevent 
them from their external operations, which really fundamentally 
is our biggest priority when it comes to ISIS in Iraq. We do 
not want them planning external plots. So I think we should put 
an emphasis on that.
    As for U.S. forces on the ground, I would not draw a line 
and say no boots on the ground or have some policy like that. I 
think we probably do have to have U.S. special operations 
forces on the ground. In what quantity and specifically how 
they are armed or trained, I think that is a point of 
conversation.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    According to our hearing briefing, in the fight in Mosul, 
we have about 65,000 combination Iraqi, Kurdish, Peshmerga, 
Sunni tribesmen engaged in that battle, about 5,000 U.S. 
troops, 3,500 coalition personnel. We have been at that now for 
about 4 months.
    How much longer is that going to go on? Just a quick 
estimate.
    Ambassador Jeffrey. Three or 4 more months, probably, 
Senator, unless they crack.
    Senator Johnson. So that is an 8-month effort with more 
than 70,000 troops. Is Raqqa going to be easier or more 
difficult than Mosul?
    Ambassador Jeffrey. The assumption from troop levels and 
such that I have heard is that it is not as heavily defended or 
as dug in as Mosul, that Mosul is where they decided, ISIS, to 
make their big fight. And we have had good success pushing 
close to Raqqa with the YPG and the Syrian Democratic Forces 
over the past six months.
    Nonetheless, we should not underestimate how tough any of 
these fights are with these guys, because with Raqqa, that will 
be their Alamo.
    Senator Johnson. So do you think we will need substantially 
less than 70,000 total combined troops to take over Raqqa?
    Ambassador Jeffrey. Of the 70,000 troops that have been 
committed, Senator, probably 10,000 to 15,000 are actually in 
offensive combat roles into the city that--the Iraqi 
counterterrorism service, which is very good; the Ninth Armored 
Division, which provides most of the heavy weapons; some of the 
Iraqi National Police division, which is actually also an elite 
force; and bits and pieces of several other----
    Senator Johnson. So you have 15,000 good Iraqi troops, 
again, close to 10,000 good American and coalition troops. That 
is 25,000. Are we going to need 25,000 for Raqqa?
    And I am going to go back to the chairman's question. Who 
is going to provide those?
    Again, to say the Syrian Democratic Forces, when we had the 
debate over the Syrian Authorization for Use of Military Force, 
who is leading it? I mean, there are 1,200 different Syrian 
groups. Where is this force?
    Ambassador Jeffrey. The Syrian Democratic Forces, which is 
essentially a camouflage of the Kurdish Syrian YPG, has about 
25,000 forces, not all of which could be committed to the Raqqa 
battle.
    I do not think that is enough troops, and I think that is 
one reason why we are going slow.
    Senator Johnson. So let us say we have a combination of 
U.S., coalition and I guess Kurdish YPG or Peshmerga forces to 
clear it, to take Raqqa. Who is going to hold it?
    Who is going to hold the territory in Syria so that Assad 
just does not flow right back in there? We clear it out, and 
they hold it.
    Mr. Bash. I think we need to have an element of the SDF 
play the hold role, along with other coalition allies and 
partners. And I think we cannot do this alone, and I think they 
cannot do this alone, but there are no other options.
    Senator Johnson. Define the element of the SDF. Who are 
they? Where are they? I just heard they are really camouflaged 
Kurdish forces, so those are the Kurds. That is not going to go 
over well with Turkey.
    We can throw these things out, but realistically, is that 
even possible?
    Ambassador Jeffrey. You are absolutely right, Senator. The 
four major tribes around Raqqa, we just did research at the 
Washington Institute, none of them are enthused about Kurds 
coming in. They have had long-standing, essentially disputes 
and conflict with the Kurds.
    There is an Arab element in the Syrian Democratic Forces. 
The State Department people who are operating that are 
optimistic about that, less so--people outside the 
administration are less so. It is one reason why we want to see 
the Free Syrian Army, who we have better contact with, because 
we did train some of them. And we are working with the Turks 
indirectly, and the Turks----
    Senator Johnson. You trained some of them. In the hundreds?
    Ambassador Jeffrey. In the thousands over the past few 
years on various clandestine programs.
    Senator Johnson. So how many Free Syrian forces do we have?
    Ambassador Jeffrey. It gets squishy on numbers, but you are 
talking about somewhere between 20,000 and 30,000, counting 
both the YPG, the other Arabs----
    Senator Johnson. Again, those would be Kurdish forces.
    Ambassador Jeffrey. Those are mostly Kurdish forces.
    Senator Johnson. So if it is primarily Kurdish forces to 
clear Raqqa, they are going to kind want to hold it, are they 
not?
    Ambassador Jeffrey. That is the default position of every 
military force I have ever seen in the Middle East, Senator. It 
does not mean that, at the end of the day, that is what 
happens. But you have to take that into consideration.
    It is one reason why I am concerned about putting all of 
our weight on that particular force.
    Senator Johnson. Diplomacy follows facts on the ground, 
right? So facts on the ground, if a military force takes over a 
city, they are going to hold it.
    Ambassador Jeffrey. If diplomacy has a big enough 
sledgehammer, it can push things in its way. But again, it is 
one reason why you need American forces on the ground in some 
numbers. It is why you have to have a very strong American 
command-and-control.
    Senator Johnson. But the question is still American forces 
bolstering whom? I still have not gotten the chairman's 
question answered. Who is going to fight this fight? Who is 
going to hold?
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you all very much for being here to 
discuss what is obviously a very thorny issue. And I share both 
of the views that you have expressed about the importance of 
reassessing at this stage our policy with respect to ISIS.
    I also agree with both of you, as Senator Cardin has said, 
that the military piece is the easy piece. It is the diplomatic 
and what comes next that is the hard piece.
    So tell me how we do that, because I think we talk about 
the specifics of the military aspects of this kind of conflict 
because it is easier to understand and it is easier to do when 
you think about we can put X number of troops on the ground. We 
can provide X number of flights. We can do X number of bombing 
raids.
    But how do we build governance, local governance, in a 
country like Syria that has had no civil society groups at all, 
that has been decimated?
    And as you both point out, we have not done well. We did 
not do it well in Vietnam. We did not do it well in Iraq. In 
Afghanistan, it still remains to be seen what the outcome is 
going to be.
    So what are the building blocks that we need to do if we 
are going to get this right, in terms of balancing the 
diplomatic mission of this effort with the military mission?
    So either one of you can go first.
    Ambassador Jeffrey. I think Senator Johnson made a pretty 
good case that actually the military side of it is not the 
easier part of it, that we have to answer a lot of questions on 
the forces and that. And that also feeds into, Senator Shaheen, 
who will hold the ground afterwards?
    Senator Shaheen. That is the question that I am asking. 
What happens the day after?
    Ambassador Jeffrey. There are several problems with your 
question, and it is a legitimate and very important question.
    One is, anybody who thinks he or she can give a really good 
answer to it has not seen what I have seen over the past 30 or 
40 years.
    Secondly, it also depends on some outside conditions. We 
looked at this, including this chamber, 20 years ago in the 
Balkans, and some of the same questions came up. I was involved 
in that. One thing I learned is, if you can get the basic 
diplomacy of the region right so that you do not have outside 
forces trying to undercut whatever messy situation, temporary, 
messy, sloppy situation you have on the ground, because that is 
the only situation you have, it kind of works.
    In Bosnia, which is a very, I do not want to hurt the 
Bosnian Government or people, but it is a very, de facto, very 
jury-rigged thing.
    Senator Shaheen. Yes, I am familiar with that. But I am 
still not clear on what you think should happen as part of that 
governance, getting it right.
    Ambassador Jeffrey. Most importantly, we need some kind of 
understanding, shared or accepted or forced on Iran and Russia 
and Turkey and, to a lesser extent, the Arab states, on what 
the order in Iraq and Syria should look like, how independent 
those countries should be and how free of influence from the 
outside, and the outside is mainly Iran, under these 
circumstances.
    If we can get that under control, local forces in these 
areas, with help from the international community, with help 
from us, with help from NGOs, can slowly build up.
    That is what we did in the Balkans. We did it outside in, 
where we fixed the diplomacy in the region. We got everybody 
more or less on board, and then we had several decades to 
tinker at reconciliation at the village level, digging wells 
and that kind of thing.
    If you try to start with digging wells and reconciliation 
when the Iranians, the Pakistanis, the Syrians, and others are 
sending in people to kill the folks doing it, believe me, it 
does not work. I have seen it.
    Senator Shaheen. So I agree with you. It does not work.
    So, Mr. Bash, what is the likelihood we are going to get it 
right, given what is happening with Russia, with Iran, with 
Iraq, with the fragility of Mr. al-Abadi's leadership in Iraq? 
What are the chances that is----
    Mr. Bash. The likelihood that we will know even if we are 
getting it right is very low, because I think this is 
fundamentally a generational struggle. And as Ambassador 
Jeffrey laid out, there are so many elements that have to play 
out over such a long time that this is going to require the 
patient work of our diplomats and our coalition partners over 
time to find partners on the ground who want to be responsible 
for their own country.
    We cannot want it more than them, and it is going to 
require us convincing them to take ownership of their own 
country. And I am referring specifically to Syria in that case.
    At the end of the day, I do not believe Assad is going to 
be a reliable partner. I think he is going to sow chaos and 
cause destruction and mayhem as long as he is there. So 
fundamentally, I think any plan to defeat ISIS, in terms of 
ejecting it completely, ejecting the conditions for ISIS on the 
ground in Syria, has to include the removal of Assad.
    Senator Shaheen. We had a briefing in the Armed Services 
Committee last week from the Institute on the Study of War, and 
they suggested that defeating ISIS was not ultimately going to 
solve our problem, that they would be replaced by another 
terrorist group. In fact, if we look at areas that have been 
cleared in Syria of ISIS, that Al Qaeda has moved in to some of 
those small villages and that they have picked right up and are 
taking over in terms of governance.
    So do you share that view? And how does that affect what is 
happening right now, in terms of the military situation?
    The Chairman. Briefly, please.
    Ambassador Jeffrey. As a terrorist group, people are right, 
in any situation like Syria, but unlike Iraq where when ISIS 
has cleared, essentially government authority has been 
reinstated, so that would be my argument to your other 
question. There are ways to make things work, because nobody on 
the outside is trying to mess with what is going on with Iraq 
today, once ISIS is driven out.
    Syria is different. Other people will pop up, as long as 
you have a situation that is as chaotic as Syria is.
    But even then, ISIS is unique as it is a state. It has an 
army. It controlled, at its height, 5 million, 6 million, 7 
million people. That is what made it such a threat to the 
region and a threat to project power against Europe and against 
the United States.
    That will go if we defeat it. If we do not solve Syria, and 
we do not solve the mess that will be afterwards, we are still 
going to have terrorist groups, but it will be a different 
order of magnitude.
    Senator Shaheen. Thank you.
    The Chairman. Thank you.
    It is with a slight degree of trepidation that I disagree 
with the only female member of this committee. I think, in 
Syria, my observation has been it has been that we have not 
been able to come up with a real military strategy, whether it 
is others or not. We have tried all kinds of train-equip, not 
tried it enough, in my opinion. But to me, we are where we are 
today----
    Senator Shaheen. I was talking theoretically, not 
specifically.
    The Chairman. Yes. I think the military component in Syria 
has, by far, been the most difficult, unanswered question. 
There has been a lot of diplomacy, but diplomacy without 
changing facts on the ground has been fairly hollow.
    Senator Young?
    Senator Young. Thank you, Mr. Chairman.
    Mr. Bash, in your written testimony, you discussed the fact 
that diplomacy needs to be on equal footing with military 
planning in a successful strategy to defeat ISIS. I agree, 
which is why I sent a letter to that effect to Secretary of 
State Tillerson.
    I request unanimous consent the letter be entered into the 
record.
    The Chairman. Without objection.

    [The information referred to is located at the end of this 
hearing transcript]

    Senator Young. Ambassador Jeffrey, based on your years of 
experience as a senior diplomat, your time at DOD and CIA, 
would you agree that the largest number of victims by far of 
radical Islamic terrorists, whether it is ISIS or Al Qaeda and 
its affiliates, have been Muslims?
    Ambassador Jeffrey. Absolutely.
    Senator Young. Mr. Bash, based on your years of experience, 
do you agree?
    Mr. Bash.: Yes.
    Senator Young. And both of you, would you agree that the 
vast majority of Muslims oppose terrorism?
    Ambassador Jeffrey. They do.
    Mr. Bash. Yes.
    Senator Young. Would you agree that if we are ever going to 
defeat radical Islamic terrorists and their depraved ideology, 
we will need to work closely and collaboratively with 
predominantly Muslim governments and populations?
    Ambassador Jeffrey. I do, and we actually do.
    Mr. Bash. Yes.
    Senator Young. And would you agree that ISIS and Al Qaeda 
would love for the U.S.-led campaign against them to be 
characterized as a war of religion or a war of civilizations?
    Ambassador Jeffrey. That is exactly what they claim it is 
and what they hope we will fall into.
    Mr. Bash. Yes, I agree with that.
    Senator Young. So within a week after the 9/11 attacks, 
President George W. Bush visited the Islamic Center of 
Washington. He said, ``These acts of violence against innocents 
violate the fundamental tenets of the Islamic faith.'' He 
continued, ``America counts millions of Muslims amongst our 
citizens, and Muslims make an incredibly valuable contribution 
to our country. Muslims are doctors, lawyers, law professors, 
members of the military, entrepreneurs, shopkeepers, moms and 
dads. And they need to be treated with respect. In our anger 
and emotion, our fellow Americans must treat each other with 
respect.''
    Would you both agree that such a statement not only honors 
American values, but it is also factually correct and 
strategically smart?
    Ambassador Jeffrey. I agree.
    Mr. Bash. It was a very wise statement.
    Senator Young. Thank you.
    Mr. Bash, in your prepared statement, you discussed ISIS's 
use of online propaganda and incitement, their ``virtual 
caliphate.''
    You also cite the Chicago Project on Security and Threats. 
This study examined 112 cases of individuals who perpetrated 
ISIS-related offenses, were indicted by the U.S. Justice 
Department for such offenses, or both, in the U.S. between 
March 2014 and March 2016. Eighty-three percent of those 
studied had watched ISIS propaganda videos.
    As you state, propaganda is an accelerant on the process of 
radicalization. You also state that American efforts to counter 
the propaganda of terrorists have been met with mixed results.
    Working with Muslim leaders, what specific steps can the 
United States Government and the State Department take to 
better counter ISIS propaganda that has played such a 
significant role in terrorist radicalization and recruitment?
    Mr. Bash. I think, most importantly, we have to convince 
the Muslim majority countries of the region to speak up about 
what Islam, in their view, stands for and what the proper view 
of Islam is, and to work with their local leaders and their 
local religious leaders to articulate that vision.
    And that just cannot be done from government podiums. It 
has to be done where ISIS and others communicate, particularly 
online and social media.
    Senator Young. So to facilitate that sort of conversation, 
those sorts of messages being delivered, what role, as you see 
it, might this committee play?
    Mr. Bash. I think supporting the efforts of and looking at 
the efforts of the Global Engagement Center at the State 
Department and other public diplomacy efforts on that vector 
are appropriate.
    Senator Young. And what is your assessment of the Global 
Engagement Center? And how do you measure success or falling 
short?
    Mr. Bash. They have had a couple reboots. I think some of 
our efforts have had some false starts. My sense, and I do not 
have this with great specificity, I would like to look into it, 
is that, in recent months, they have had a renewed energy, a 
renewed focus. And I think they have had a good team in place 
there, and I hope that they continue to.
    Senator Young. How do we measure success, both of you, with 
respect to information, operations, cyber strategies, public 
diplomacy? It is unclear to me. We emphasize this a lot, but 
how do we measure success? I am running out of time, but if you 
have any thoughts on that, either of you.
    Ambassador Jeffrey. You cannot look at the inputs, because 
that is typically what we do. How many people we have, how many 
messages we get out.
    Basically, it is feedback from communities that basically 
tell folks who we trust in those communities that they like 
what they are hearing. And a lot of it has to be us supporting 
people so that folks do not even know it is coming out of the 
United States, or it is coming from the West, but it is coming 
from people--and they are all over the Middle East--who 
essentially abhor what ISIS and Al Qaeda are doing.
    Mr. Bash. I would just add one thing, Senator. CSIS, under 
the leadership of my old boss, Secretary Panetta, and Tony 
Blair, conducted a countering violent extremism study and 
commission. They reported out just after the election. And 
there is a lot of good polling information in there and a lot 
of good information about how to measure the impacts of some of 
these efforts.
    Senator Young. Thank you.
    The Chairman. Thank you.
    Senator Markey?
    Senator Menendez. Senator Markey has gone.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both, for your testimony.
    Mr. Bash, I appreciate the comprehensive nature that you 
mentioned in your testimony, because from my own personal 
perspective, I think it is one of the aspects--although we say 
we have a comprehensive plan, I think we have fallen far short 
from a comprehensive plan, and I appreciate the efforts that 
you laid out. I think they are spot on in terms of what we 
need, and I hope the administration will actually take to heart 
some of what you have said.
    I want to particularly ask about Russia.
    President Trump has indicated he would like to cooperate 
with Russia to defeat ISIS. My question is, is this a realistic 
proposition? Russia is and has repeatedly shown its interest in 
the region in supporting a war criminal like Assad, and the 
latest reports just magnify the brutality of that regime, 
collaborating with leading state sponsors of terrorism in Iran.
    In fact, over the weekend, a Kremlin spokesman said, 
``Russia has friendly relations with Iran. We cooperate on a 
wide range of issues. We value our trade ties. We hope to 
develop them further.''
    So between sentiments like that and the President's 
national security adviser putting Iran on notice, how viable is 
a partnership with Russia in combating ISIS? It does not seem 
to me that that has been their central focus in the region.
    Mr. Bash. Let me answer it this way, Senator. We tested 
that proposition. The Secretary of State, the Secretary of 
Defense, tested that proposition, and the test failed.
    Russia utterly lacked the professionalism, the training, 
and the political will to cooperate with us. It was not just 
that their military actions were imprecise and targeted 
civilians. They did those things. It was that they actually 
would not coordinate with us and would not work with us in any 
productive fashion.
    And I believe what they were fundamentally trying to do in 
reaching out to us to coordinate was to establish their own 
foothold in Syria, to end their global isolation from what they 
had done in Europe and Ukraine, and to try to challenge and 
undermine our interests around the world.
    So I think not only would it not be productive, it would 
actually be counterproductive.
    Senator Menendez. So let me just say, it seems to me that 
while we have not had the comprehensive strategy I think we 
need, I do think that President Trump is inheriting a 
functioning coalition that has avoided blowups in Iraq and 
taken back all the cities except half of Mosul, trained up 
Iraqi forces, kept Shia militants largely sidelined from the 
main battles, and done all of that while keeping Americans out 
of combat and off the frontlines.
    So what happens from here on is on the President's watch.
    In that regard, when you say that Iran--when the President 
says that Iran is taking over Iraq more and more every day, I 
wonder how that kind of talk plays in Iraq. Unlike Putin's 
Russia, which is totally authoritarian, al-Abadi and Iraqi 
democratic politics are subject to far more consequences of 
language like that. There is only so much they can absorb, 
versus entities that are as authoritarian as Putin's Russia is.
    And so, Ambassador Jeffrey, what do you say to that?
    Ambassador Jeffrey. It was not helpful, and, of course, the 
Iraqis immediately reacted and said, heaven forbid, we have 
nothing to do with Iranians.
    The point is, Iran is probably the most important player in 
Iraq. But it is not like in Lebanon where it actually controls 
essentially a monopoly of force or can generate a monopoly of 
force and basically dictate to the government.
    It has two major obstacles.
    One obstacle is, of course, the religious authorities in 
Najaf, who have a different view of Shia Islam and do not turn 
to Iran.
    The second one is the oil that Iraq pumps. It is one of the 
major reasons why Iran is not reaping the kind of financial 
rewards of selling oil now after the nuclear agreement, because 
oil prices are low. And one of the major reasons for that is 
Iraq's success.
    And the Iraqis, including the Shia Arab Iraqis, do not want 
to be a vassal state of Iran. And there are ways that we in the 
international community can help Iraq stay independent of Iran, 
but it requires sustained engagement on our part, and it 
requires us recognizing that Iran is the problem. And up until 
very recently, we have not had that, sir.
    Senator Menendez. I agree. It requires us recognizing Iran 
as a problem. It requires us recognizing that Russia is 
complicit with Iran in a variety of serious issues.
    It also has to have some sensitivity for President Trump to 
understand that when he says what he says about Iraq, when he 
says we are going to take their oil, it undermines the effort 
of a nascent government and their ability to be cohesive and be 
less dependent on Iran. That, to me, is a critical part of the 
fight against ISIS.
    Thank you, Mr. Chairman.
    The Chairman. Senator Portman?
    Before I get to that, though, this is something I have been 
saying for some time. This is not a recent thing. But I mean, 
in fairness, this has nothing to do with the current President, 
nor any defense. I mean, Iran has huge influence over the 
parliament there. There is no question, is there?
    And I have been saying for a couple years now that 
everything we are doing there is, to a degree, making Iraq a 
better country for Iran. I mean, I know we want to maintain our 
influence, but, I mean, there is some truth to that somewhat 
rhetorical statement, is there not?
    Ambassador Jeffrey. About every third morning I get up and 
I would agree with that. But the other two mornings, I see what 
goes on there. The way that people welcomed us back, Senator, 
in 2014 and 2015, and how we have been able to forge this force 
that is now fighting effectively against a very tough enemy--we 
also have the Kurds in the north who are very close to us and 
can play a very interesting role in balancing that ship of 
state.
    And the Iraqis, what they do not want to do is be enlisted 
in any American campaign against Iran. They want to stay 
neutral, if they can. That is one reason why they resist the 
Saudis and others, because they want them to say, ``We are 
Arabs. We are against Iran.''
    Again, if Iran could have had its way, Iraq's oil exports 
would have been capped way below what Iran's were, and Iran 
would have reaped the benefits of much higher oil prices. But 
Iran was smart enough to know they could not demand that 
because the Iraqis would say no.
    That is what I look at is, what would Iran like to do in 
Iraq that it cannot do? And the next big question is us trying 
to keep our forces on.
    The Chairman. Well, we will find out as soon as Mosul is 
taken, will we not?
    Senator Portman?
    Senator Portman. Thank you, Mr. Chairman.
    Let me dig a little deeper into the discussion we had 
earlier about Russia and their role.
    In response to Senator Menendez's question, Mr. Bash, you 
said that you believe that Russia's intent is to have a 
stronger foothold in the Middle East, particularly in Syria, 
and that they also were seeking to move away from the political 
isolation based on their actions in Eastern Europe.
    I think it is more than that, and I think it is an attempt 
by Russia to try to work on a grand bargain, as we talk about 
around here, which would be to relieve some of the sanctions, 
certainly the sanctions related to Crimea and probably what 
they are doing on the Eastern border of Ukraine, maybe some of 
the human rights sanctions, in exchange for a fight against 
ISIS. So I think we have to look at what has actually happened.
    I guess the first question I would have for you is with 
regard to the government that they are backing in Syria and 
have kept in power, in effect, which is Assad. I mean, do you 
think that the Assad's regime, particularly the barrel-bombing 
of civilians, the chemical weapons use, this atrocity we heard 
about over the weekend, the attacks against moderate rebel 
groups, do you think these sorts of things have escalated the 
conflict and fueled the growth of ISIS in Syria?
    Mr. Bash. Very much so. I think Syria creates the petri 
dish in which an ISIS can grow, and Assad's policies accomplish 
that.
    I agree with the premise of your statement that the whole 
mode of Syria and Assad is to do these things in the name of 
counterterrorism, in the name of fighting ISIS, when, in fact, 
what they are doing is liquidating the entire part of the 
country that could be a moderate opposition and that could 
actually assume power.
    And that is why he is doing it, because it is a threat, 
fundamentally, to his seat of power. He is doing that with the 
umbrella and tactical and operational support of Russia.
    Senator Portman. So it is to say that, by backing Assad, it 
has helped with regard to the fight against ISIS, which is what 
this hearing is about.
    Second would be, how effective has Russia been at going 
after ISIS? My sense is, from all the reporting we are getting, 
and a letter from groups that have now documented this, that 
Moscow has targeted the non-ISIS forces far more than they have 
ever targeted any ISIS forces or other extremist forces.
    Is that your understanding? Do you agree that Russia and 
Iran devoted the bulk of their efforts in Syria to defeating 
the moderate opposition rather than going after ISIS?
    Ambassador Jeffrey. I do, Senator. And there is a long 
tradition of that. During the Iraq campaign, Assad was allowing 
Al Qaeda volunteers to come through Damascus and go over the 
border and support the Al Qaeda attacks on us and on the Iraqi 
Government. And we have seen this with Assad basically cutting 
deals, particularly in the oil area, with ISIS over the past 
years and focusing on the more moderate groups.
    And with the Russians, they have done one campaign against 
ISIS. They seized Palmyra. But you will notice that ISIS took 
it back, so I am not impressed with their military capabilities 
against ISIS, let alone their political motivations.
    Senator Portman. You mentioned that earlier, on the 
military capabilities. That was interesting.
    Let me ask you the question then. Would either of you think 
that it would be in our interests as a country to lift the 
Ukraine-related sanctions in exchange for Russian cooperation 
in the Middle East against ISIS?
    Mr. Bash. In my view, that grand bargain would be a 
horrible deal for the United States. We would get all the 
downside and none of the upside.
    Ambassador Jeffrey. I agree. The only argument for lifting 
sanctions on Ukraine is a deal on Ukraine. It is a totally 
separate issue.
    But even if it were linked somehow, I still have to ask, 
what does Russia bring to the fight other than endorsing the 
very worst elements in the region that fuels conflict, fuels 
extremism, and does not tamp it down?
    Senator Portman. Ambassador, based on your broad experience 
in the intelligence community and national security community, 
how do you feel about relieving sanctions when the underlying 
reason for the sanctions, the cause of the sanctions, is not 
addressed? Does that not send a terrible signal to our allies 
and our adversaries alike, that the United States does not 
stand by the reasons we put these sanctions in place?
    Ambassador Jeffrey. Absolutely. And sanctions, particularly 
the sanctions we have against Russia right now, are having a 
significant effect on the Russian economy, and that is a good 
thing. And it also gives us leverage to get them to, first of 
all, contain their own aggressiveness in the Ukraine and 
possibly, eventually, someday, do a deal.
    But until they do a deal, the sanctions should stay on.
    Senator Portman. Thank you. I have very little time, but I 
want to echo some of the comments that my colleague Senator 
Young said in terms of our fight against ISIS. This is a 
hearing about that issue. And in the Governmental Affairs 
Committee, we have had some of these same discussions, how to 
get the Global Engagement Center to be more effective.
    As you said, we have had a difficult time putting the U.S. 
Government policies together to be able to effectively counter, 
particularly online, much less involving, as you suggest, 
Muslim-majority countries and the Muslim community here in a 
more effective way. I think that is our most significant 
challenge.
    So I am going to follow up with some questions in writing 
for both of you on that, following up on some hearings we have 
had in the Homeland Security and Governmental Affairs 
Committee.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murphy?
    Senator Murphy. Thank you, Mr. Chairman.
    I hope that this administration recovers from a very rocky 
start on America's relationship with the world, but if they do 
not, this committee is going to be incredibly important in 
providing oversight and asking some questions.
    I think this administration has made some really stunning 
mistakes when it comes to the counter-ISIL campaign.
    They have launched a new strategy with the Department of 
Defense in the lead. This panel has told us that State should 
be equivalent to Defense in plotting that strategy.
    They have suggested that Russia will be a key component to 
the military strategy. This panel has told us that Russia 
should have no part of that military strategy inside Syria.
    They have launched a ban on immigration from Iraq and 
Syria. This panel has told us that that, in fact, could feed 
recruitment efforts of the very groups that we are fighting.
    But, frankly, I think all those mistakes would be dwarfed 
by a decision on behalf of this administration to put U.S. 
combat troops into Syria.
    And so, Ambassador Jeffrey, I just want to drill down a 
little more on this question, because it is one of your 
recommendations. I am trying to understand how we would limit a 
large deployment of troops--you recommend in the thousands--to 
a military mission. The reality, I would imagine, is that, 
after the military objective was accomplished, and this very 
complicated, convoluted process of sorting out who controls 
Raqqa began, the United States military presence could not 
leave, because having invested major treasure and perhaps lives 
in securing Raqqa, we would not leave the distribution of power 
to a set of players that were under our control during the 
invasion.
    And so I guess I am worried about a military deployment, 
because I do not understand how it does not end up in the same 
way that Iraq did, that we are bogged down, that we cannot 
leave, that we have so much at stake that we need to keep that 
military presence there in order to try to have some say over 
the distribution of power.
    But you seem to suggest that we could have a purely 
military role and then leave the politics to somebody else, 
even though that is not how things have played out in previous 
military engagements in the region.
    Ambassador Jeffrey. This committee is right to look 
carefully at any suggestion of American ground troops, given 
our history that has been rocky in that regard.
    That said, I would point out that, as we heard, we have 
some 5,000 troops involved in things that, to an outsider, 
would look very close to combat--Apache helicopters, artillery, 
special forces teams conducting raids, advisers at the 
battalion level essentially calling in strikes--5,000 troops 
doing that, along with 3,500 other allies from NATO countries, 
Australia and such, already in the fight in Mosul. And we are 
reinforcing the number of troops.
    So it is not a question of having forces on the ground.
    Senator Murphy. But is that not a little unfair? Is not the 
question of Mosul post-invasion very different than the 
question of Raqqa and Syria post-invasion?
    Ambassador Jeffrey. Absolutely. But, again, I am just 
simply stating that we already have forces on the ground in a 
more or less quasi-military mission, and we are going to have 
to answer questions. We will have to answer questions on Mosul. 
It is a lot easier than Raqqa, but it still will have issues of 
who goes where in Tal Afar and Sinjar Mountains, and west and 
east Mosul. People are focused on this all of the time. And the 
same thing in spades would occur in Raqqa.
    Again, I am not saying that you go in and then leave. It is 
just that major combat units do not assume the responsibility 
of securing a population and jumpstarting some kind of economic 
and social transformation. That is what we did in Iraq. It is 
what we are still doing--or we did up until recently--in 
Afghanistan. And it is a highly questionable strategy.
    Senator Murphy. Do we, and either one of you can answer 
this--maybe I will pose it to Mr. Bash.
    Let us set aside the military objective of crushing ISIL. 
Does the United States have a national security interest, a 
vital national security interest, as to which one of the 
surrounding powers ultimately prevails in the future Syrian 
Government?
    Is it a vital U.S. national security interest as to whether 
the Turks or the Saudis or the Russians end up having the most 
influence inside a future Syrian Government?
    Should we stick around just to make sure that ISIS is 
defeated, or should we stick around to try to sort out who has 
influence?
    I would be glad to have both of you answer it, but I am 
short on time.
    Mr. Bash. I think we have an interest in stability and in 
good governance, and a partner there that we can work with. Its 
precise complexion, I am not sure we have a large interest. But 
I would say I would not want it to be Iran and Russia, because 
we already know their complexion. We already know that they 
will work to undermine U.S. interests.
    The other countries you referenced could, I think, be 
constructive partners.
    Senator Murphy. I would, Mr. Chairman, turn it back over, 
but we would beg for the Syria pre-conflict, Syria in which 
Iran and Russia essentially had proxy control over that 
government. That I think a lot of us would wish that that 
scenario was still the reality on the ground.
    So I just challenge the notion that, in the end, that is a 
vital national security interest of the United States.
    Thank you, Mr. Chairman.
    The Chairman. Do you want to answer that, Ambassador?
    Ambassador Jeffrey. Very quickly, in that happy era, 
Senator, Iran was not seen in the region as being on the 
offensive.
    And secondly, Iran's control over Syria was quite limited. 
Syria was negotiating with the Israelis. Syria was working 
closely with the Turks. Syria was off with the North Koreans 
developing a nuclear capacity that Iran not only did not know 
about but was shocked to hear.
    So it was a much more independent Syria, and it was not 
part of, essentially, a front against the rest of the region 
that we have right now.
    The Chairman. But this hearing, I mean, there are a lot of 
great questions being asked, and they are very difficult to 
answer, are they not? And that is why I think Syria is in the 
shape that it is in today.
    Senator Paul?
    Senator Paul. I would like to go on record as saying that 
it would be a really rotten, no good, bad idea to have ground 
troops in Syria, and very naive to think you are going to put 
1,000 troops in there and everybody is going to welcome us, 
very presumptuous to think we are going to decide who takes 
Raqqa and who occupies Raqqa.
    Do you not think the people there would be aghast to think 
we are, 3,000 miles away, going to decide who is going to take 
over Raqqa and who is going to occupy it? That Assad is just 
going to let us waltz in, and Mr. Bash says, oh, we are just 
going to remove Assad.
    The assumptions of all of this, the naivete of thinking, 
oh, my goodness--but here is the other problem. We can win any 
battle, but when we win, we usually go big. So there have been 
many people, the Powell Doctrine of go big or do not go, 1,000 
soldiers--and then the other problem. Let us say we could win 
with 1,000 soldiers. Senator Murphy is exactly right. The 
mantra is always stay, stay, stay, we must stay forever. And if 
we leave, that is our fault for leaving. There is no exit from 
a situation like this.
    But I would say that when you look at a war like this, let 
us say we were to go in and defeat those who were there, to 
defeat ISIS, do you think that is the end? No. When a big force 
comes, they are going to shrink away and they will fight until 
the end of time. And they will fight against an American target 
if Americans are the target.
    This is a war within Islam, and I think we should be 
supportive and try to amplify those who are trying to defeat 
this aberration, but let us not make it our war.
    Look, there are 200,000 Peshmerga. There are 200,000 Iraq 
soldiers. There are 100,000-some-odd in the Syrian army. There 
are 600,000 in the Turks. And there are 15,000 ISIS. And we 
have to go over there to defeat them?
    I think we ought to think this thing through and think that 
this will not be the end. This will be the beginning.
    And I guarantee the voices are loud and strong. Everybody 
says we should have stayed in Iraq. Everybody is still saying 
we should stay in Afghanistan. Are we going to stay everywhere 
forever?
    So I think we need to think through whether or not this 
needs to be an American-led battle for Raqqa, and that, all of 
the sudden, the Kurds are going to waltz in and Assad is going 
to love that and the people who live in Raqqa are going to love 
having the Kurds there?
    I mean, these are pretty naive assumptions, and we have to 
be, I think, concerned and think through before we say, oh, we 
are going to put 1,000 Americans as we go into Raqqa. Perhaps 
maybe 1,000 people from Raqqa might be better than 1,000 
Americans, you know?
    You know, I am not opposed to putting some money in there 
to help them with weapons, to help them. But putting 1,000 
Americans in there is a really, really terrible idea.
    You can both respond, or chastise me, or however you would 
like to respond. I am open to it.
    Ambassador Jeffrey. It is a hard question to try to push 
back against, Senator, because we have had a lot of bad 
experiences. Again, and as one who has argued constantly that 
we are not welcome when we go big on the ground in the Middle 
East, in particular, and that we often have very ambiguous 
social and economic missions that keep us tied down, and that 
is wrong, I find myself in an almost contradictory position. 
But I am very confident in what I am saying for several 
reasons.
    First of all, do we want to destroy not Al Qaeda, because 
we cannot destroy Al Qaeda. You are absolutely right. What we 
can do is destroy something that looks a lot like a state and 
an army, because we are good at that. We can break those 
things. And almost nobody else is really good enough.
    You are absolutely right about the numbers you have cited, 
and I think absolutely right that all of those king's horses 
and king's men have not done that well against ISIS.
    Senator Paul. But we are going to remove Assad and tell 
Russia to leave? You know, Assad, look, Assad is winning right 
now. I mean, I would think he is on the ascendancy.
    And I would say, a couple years ago, there was a 
possibility. I think there is almost no possibility that Assad 
is going. There is almost no possibility that Russia is going 
anywhere.
    How long have they had a base in Syria? I would say it is 
pretty important to them. I am not saying it is right or wrong. 
I am just saying it is pretty important to them.
    The ultimate answer here is a diplomatic one. You need 
Turkey to get along with the Kurds, which they do not. You need 
them to want to defeat ISIS more than Assad. You need to get 
Assad involved in this as well, and to agree that it is in his 
best interests to get rid of ISIS. But it cannot be removing 
Assad, if you want Assad to help with this at all.
    But ultimately, all the region needs to be somehow unified. 
But that is the problem. That is the conundrum. It is a 
virtually impossible task.
    But putting 1,000 Americans in the middle of a battle in 
Raqqa is a very bad idea.
    Ambassador Jeffrey. To clarify, I never said using American 
troops or even American diplomacy to get rid of Assad. I think, 
for the moment, Assad in the part of Syria where he is, is not 
part of the solution but it is part of the facts.
    I am talking about using an American force for a very 
specific military mission that nobody else has seemed to figure 
out how we are going to break it.
    Senator Paul. It will happen without us. It can happen with 
our support, but it is a really bad idea to put American troops 
in the assault on Raqqa.
    Mr. Bash. May I just add one thing?
    The Chairman. Absolutely. Yes, sir.
    Mr. Bash. You are undoubtedly correct, Senator, that all of 
the enumerated problems that you laid out cannot be solved by 
us alone. It certainly cannot be solved by a small number of 
U.S. forces. It is one of the reasons why I do not think the 
Defense Department alone can be the lead on this.
    However, if we resolutely focus on one narrow aspect of our 
national interest, it is preventing Raqqa from being a safe 
haven for ISIS to conduct external operations and plots that 
could attack Europe and the United States. And I would just 
commend for the committee's review this article in the New York 
Times on February 4th that stated that 40 percent of the so-
called lone-wolf terrorists that have deployed around the 
world, actually, there was an operational connection between 
them and ISIS senior leaders in Raqqa.
    So while we are not going to solve all the problems, if we 
can put more pressure, either through airstrikes, special 
operations forces, smaller application of military force to 
keep a suppression force on ISIS command-and-control, we might 
be able to reduce that number from 40 percent to 20 percent to 
10 percent, and reduce the possibility that ISIS can conduct 
attacks that can kill innocent Americans.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to the witnesses. This will be very helpful as 
we review what the administration brings to us. I appreciate 
your testimony today.
    Ambassador Jeffrey, I am looking at your written testimony, 
and you said a version of it in your verbal testimony.
    The last page, ``The U.S. military should press for a 
'stay-behind' train and liaison presence of several thousand 
troops in Iraq, supporting both Kurdish Peshmerga and Iraqi 
regular military forces.'' And you believe that that is 
necessary to avoid ISIS rushing back in to claim space that is 
a vacuum.
    In your verbal testimony, you said let us not repeat the 
mistake that led to the 2014 rise of ISIS.
    I just want to drill into this one for a second. You are 
not suggesting we should stay in Iraq over their objection or 
be an occupier, correct?
    Ambassador Jeffrey. No, not that we would be able to.
    Senator Kaine. So the idea is, we should stay because what 
we provide adds value and they would want us to stay. But the 
political reality of that, it seems to me there have been two 
things in the last 2 weeks that are going to make this harder.
    The notion that the U.S. President is saying we want to 
take Iraqi oil will make them, if they take that seriously, a 
little bit skittish about us staying.
    And second, a decision to ban Iraqis from coming into the 
United States, even Iraqis that helped the American military 
when they were there, that is also going to make Iraqis a 
little bit skittish about a continued U.S. presence.
    And I imagine both of these things are probably being used 
by Iran right now to say, you see, is the U.S. your friend, 
when they will not let Iraqis come into their country? Is the 
U.S. your friend when their President is saying we are going to 
take oil?
    Do you not think it is pretty important, as a matter of 
policy, that we fix these things if we want to try to convince 
Iraq that we should be a partner going forward, rather than 
somebody that they want to leave after Mosul falls?
    Ambassador Jeffrey. I could not agree more. On taking 
Iraq's oil, the Iraqis, if asked, would have to comment on that 
and say--in fact, they have. But I do not think they really 
believe that.
    Now, where you have a point, sir, is on the immigrant 
decision, the executive order. The thing, from a policy 
standpoint, that was I think the only really troubling thing, 
leave aside the constitutional and the humanitarian and the 
other, was including Iraq. Because who are the others? Five 
failed states in the middle of chaos and Iran. That is why it 
did not have much of an impact in the larger Middle East, 
because those are not countries like Pakistan and Egypt and 
Saudi Arabia and Turkey that are now major players.
    Iraq is different though. It is a serious ally of ours. It 
is a functioning country. It also has an Al Qaeda and an ISIS 
presence.
    But it should not have been on that list. I think it was a 
mistake to go on it. We all know the genesis of that list from 
the seven countries that you could not go back to in the last 
administration. And somebody did not think.
    But if there is one thing I am pretty sure of from my many 
years of watching government is that whatever mistakes this new 
administration makes in the next years, Senator, they will not 
make that specific mistake again.
    Senator Kaine. I pray that that is the case, and I think 
that there is still time to fix it, and I hope it is fixed 
either in the courts or here or by an administration that 
rethinks it.
    Second, and this is to follow up on some questions both 
Senators Portman and Menendez were asking, candidate and 
President Trump has said that he expected Russia's help in 
defeating ISIS. I think we would all agree that has been 
virtually nonexistent thus far. And I think the testimony that 
you gave in connection with Senator Portman's question is the 
expectation, that that will dramatically change, that Russia 
will be an ally in defeating ISIS, you would have to be quite a 
risk-taker to take that bet right now, do you not agree?
    Mr. Bash. Yes. I think Russia feels more emboldened, not 
more in the mode of doing what we want them to do.
    Senator Kaine. And President Trump last week said he 
thought Russia would assist us in keeping Iran in check, and 
then Russia immediately came out and said, no, Iran is an ally 
of ours. We are trading partners. We are allies. And we want a 
deeper relationship.
    So would you also agree that any expectation that Russia 
would be a check against Iranian ambitions would be pretty darn 
naive right now?
    Ambassador Jeffrey. Now that is a different and interesting 
question, Senator.
    There may be a little bit of light there. The reason is--
and I am not normally a Russia expert, but I have had 2 weeks 
with the Russians over the last year, mainly on Syria and Iraq 
and Iran. And there is a difference.
    There is a way to split them off. Russia wants to have a 
lot more influence in the Middle East, but it is backing a 
horse, Iran, which sees the Middle East as a clash of Shia and 
Sunni Islam, with itself leading the Shia forces and the 
revolutionary forces, the Islamic forces. But the bulk of the 
region, which is Sunni Muslim, sees that as an abhorrent threat 
to their very existence. And that puts Russia in a funny 
position.
    I do not think Russia really wants to help Iran and Assad 
seize all of Syria. I think that they really are halfway 
serious about the Astana ceasefire, and we ought to be able to 
build on that. And I think that they will not be able to 
actively limit what Iran is doing in the region. Relations are 
too close.
    But it would be really nice if they could be careful on how 
and how rapidly they sell our weapons to Iran and how strongly 
they support Iran on the Security Council.
    Senator Kaine. And do you predict they will be careful?
    Ambassador Jeffrey. I predict that there may be a deal 
there, but I am not sure. It is going to be hard, and they will 
want something in return.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman. As usual, you 
made a very prophetic statement when you opened the questioning 
period, when you said, after all, we are really just talking 
about a bunch of proxies fighting over each other. And if you 
listen to everything that has been said, that really is true.
    The lives that are on the ground, except for the few of the 
United States of America, are lives that are fighting for a 
proxy that has nothing to do with the country they are from or 
the religion that they are in. I just wanted to make that 
observation. That makes it different.
    I have been listening to everybody. I have been thinking, 
there have been two times in the United States' history when we 
were attacked and had great loss of life. One was Pearl Harbor. 
We lost almost 3,000 Americans in 1 day. The other was 9/11 in 
New York where we lost 3,000 Americans in 1 day.
    And the result of World War II and the attack on America at 
Pearl Harbor was we ultimately declared war both in the Pacific 
and with the Axis powers in Europe.
    Since 9/11/2001, we have fought a lot of battles. We have 
made a lot of declarations. But there is not, to my knowledge, 
a declaration of the global effort to fight ISIL.
    Am I correct there?
    The Chairman. Say that one more time?
    Senator Isakson. Is there a declaration somewhere on the 
global fight to disrupt ISIL? Any declaration of war?
    The Chairman. No, I think the administration has relied 
upon the '01, saying that they are a derivative of Al Qaeda. 
And last week, in meeting with the national security adviser, 
we began discussing this very topic and maybe a way forward.
    But go ahead.
    Senator Isakson. My reason for bringing it up is just to 
comment on everything that we have listened to. The one thing 
that is missing from the two great comparisons, which is 9/11 
and Pearl Harbor, is the result after Pearl Harbor was pretty 
quickly a coalition of freedom-loving people who joined 
together in a powerful force to take on the Axis powers and, in 
fact, Nazi Germany.
    I would submit to you that the enemy we face today, 
although it does not have a territory, does not have a uniform, 
does not have a recognized leader, is every bit as lethal, 
every bit as awful, and every bit as big a threat to America as 
was the World War II effort against Nazi Germany and the Axis 
powers in the Pacific.
    I just want to make the point, we need to make that 
declaration at some point in time. And we need to find out if 
our friends are going to rally to the declaration or sit on the 
sidelines and watch.
    Right now, everybody who could be a friend of the United 
States in fighting, with the exception, and there are 
exceptions, the Swedes in Afghanistan. There are a lot of 
countries helping us here, there, and yonder. But in terms of 
an absolute commitment of the countries' commitment to the 
effort, they are not there, because there is not a declaration 
there.
    And I am doing all the talking, not asking questions, and I 
am sorry about that. But I just had to make that point, because 
it is something we are eventually going to have to do.
    Mr. Bash, you made a statement a minute ago, or in your 
speech, about we ought to stop the Muslim-only order, and then 
you made a statement that working with Muslim leaders in 
America, we ought to come to a decision.
    Who are those Muslim leaders? Has there been any assembly 
of those Muslim leaders that you know of? Or do you know who 
they are?
    Mr. Bash. I think there are a number of leaders of 
organizations and communities here in the United States who 
have stepped forward and expressed a willingness to work 
together with the U.S. Government, to work together with law 
enforcement, who have worked with the Department of Homeland 
Security and other agencies and departments that are interested 
in providing funds, and resources to those elements that are 
engaged in countering violent extremism activities and to 
looking out for those communities.
    Senator Isakson. Is there an equivalent in the Muslim world 
to either the Pope or Billy Graham?
    Mr. Bash. Not that I am aware of.
    Senator Isakson. Just wondering. We need to find that 
person somewhere or that title. That would be the place to 
start negotiating and bringing them in the conversation, 
because I think they have a lot to lose too. I mean, I have a 
number of Muslim friends. I had a Muslim roommate when I was in 
high school in a foreign exchange program. I have a great 
respect for the faith. But they have as much to lose in this 
war as anybody else has.
    Mr. Bash. It is a good point. And my dad is here, who is a 
member of the clergy. And it is interesting to see different 
religions and the hierarchy that governs them. And I think you 
have put your finger on an issue that I think we need to work 
through.
    Senator Isakson. My last point is, the reference was made 
during Senator Shaheen's questioning to Vietnam and Iraq as two 
examples of where, when it was over, there was not a plan to 
keep it going, and, therefore, we lost. There was no nation-
state built.
    Of course, in Vietnam, we basically lost. We left without 
winning.
    But in Iraq, we ultimately won with a surge of 130,000 
troops that went into Iraq. Then we put in provincial 
reconstruction teams and the State Department and USAID in 
those regions to really bring back Iraq to a civilized society. 
And we only lost Iraq when we took out that remaining small 
residual force, military force, that was there.
    My only point is, at some point in time, you probably have 
to make the decision that you are going to have to have some 
military presence over a protracted period of time if, in fact, 
victory is important enough to you to send troops to take over 
that country--just look at Japan and Germany today, 70 years 
after World War II.
    And I thank you for the time, Mr. Chairman.
    The Chairman. Thank you.
    If I could, would one of you all respond to Senator 
Isakson's premise that ISIS is something that deserves a global 
effort equal to what we did in World War II?
    Ambassador Jeffrey. I do not think it is as big a threat to 
the United States. I put ISIS in the same category as the 
Islamic State.
    Essentially, Sunni extremist, radical movements are a 
threat to the region. They are definitely a threat to Europe 
because they have very strong, if you will, footholds in Muslim 
communities in Europe.
    I do not see them as a threat to us because they do not 
have that kind of situation that you have, for example, in 
France, in Belgium, and in Britain.
    And their ability to strike us, other than periodically by 
terrorist attacks, will be limited as long as they are not 
allowed to have a state. And the reason that ISIS has been 
pretty effective launching these attacks, as Jeremy Bash said, 
is because it has the ability to motivate people around the 
world. That is why job one in the fight against terror has to 
be to bash the ISIS state.
    I do think, though, and I know you have talked about this 
before in this committee, that an authorization for the use of 
military force against ISIS would be a good idea because, as 
you said, Senator, we are still operating on 1.2, but then we 
got it back down to one authorization that tracks the immediate 
post-9/11 period. And I think it would be perhaps helpful to 
clarify exactly the questions that the Senator and many other 
Americans have raised.
    The Chairman. But marshaling efforts around the world to 
deal with this is not something that you would disagree with? 
The order of magnitude of the threat may be different, from 
your perspective, but----
    Ambassador Jeffrey. The overall mess that is the Middle 
East, and much of that has one or another Islamic component--
certainly, Sunni Islamic extremism in Iran, which is an Islamic 
entity of another sort, taken as a whole, has obviously been 
for a long time--look at our military engagements there--and 
will continue to be a major risk for the security of the entire 
world. And it pulls in other countries like Russia today, 
perhaps China tomorrow. And that is the danger too.
    So it is a very big priority for our foreign policy and our 
national security, to try to get the region under control. I 
think, in that sense, it is a major effort. But I would not 
say--it is not a war on a specific thing the way it was in 
World War II.
    Mr. Bash. May I just add, Mr. Chairman, may I just add, we 
do have a global coalition and I would not want to leave anyone 
with the impression, particularly our coalition partners, that 
we do not think that they are there in the fight with us. They 
very much are. They are taking fire, and they are doing some 
very important things alongside our diplomats, our intelligence 
officers, and our troops. That is point one.
    But point two, I think it is worth it, since we have just 
come through an election, to refresh that and to refresh that 
statement, refresh that declaration. With Congress in the lead, 
I think it is very appropriate.
    The Chairman. Thank you.
    Senator Coons?
    Senator Coons. Thank you, Chairman Corker.
    I have three basic lines of questioning.
    One will simply continue that, which is to follow up on one 
of your opening statements, Mr. Bash, to ask about the global 
affiliates of ISIS that have pledged allegiance to the 
caliphate. And I want to explore with you a little bit what 
that really means, how much control there really is, what sort 
of coordination there really is.
    Second, I will ask about how we prevent Iran from expanding 
their hegemony into Syria after the fall of Raqqa and into Iraq 
after the fall of Mosul.
    And then third, a number of my colleagues have covered, and 
you have spoken to directly, a number of President Trump's 
unhelpful statements about seizing Iraq's oil, the impact of 
his saying he would reinstate torture, and then, most 
importantly, the executive order banning refugees from seven 
majority Muslim countries.
    But let us take those in order, if we could.
    First, in the Sahel area, I paid a fair amount of attention 
to it as chair of the Africa Subcommittee my first years, and 
in Southeast Asia region, others have raised, you have ISIS 
affiliates. But my superficial impression is that they are not 
tightly aligned, not funding each other, not sharing technology 
and weaponry and training. But perhaps I am missing a core 
point.
    You did, in your opening, and I think it is important, 
emphasize that Australia has been our ally in virtually every 
undertaking in the last century. That NATO is an absolutely 
crucial partner. And I just wanted to give you, Mr. Bash, 
Ambassador Jeffrey, a moment to speak to the global 
consequences and the importance of reaffirming our coalition 
partners.
    Mr. Bash. Well, I think the specific operational ties vary 
in different situations. Actually, if you look at--I read 
through that statement that the White House released last night 
about the terror attacks that, in their view, have been 
underreported. And actually, so many of those were those that 
were inspired or enabled by ISIS's propaganda, their 
incitement, and their ideas.
    And that is their main weapon. That is their main export. 
That is how they do their business. And, by the way, it is 
pretty effective.
    Ambassador Jeffrey. Let me tackle the containing of Iran. 
The first thing we have to do, and this would be a change from 
the last administration, is to recognize that Iran is a problem 
in the region and that America, with its friends and allies in 
an economy of force way, needs to push back. And that will set 
the stage for cooperation with a lot of friends who believe the 
same way.
    But specifically, there is a ceasefire that the Russians 
and the Iranians and the Turks and the Syrians put together for 
Syria, the Astana one. The Turks are willing to live with that, 
even though their side lost, basically. The Russians put it 
together and have some interest in it. The Syrians, the Assad 
government, does not really like it. It wants to retake the 
whole country on the back of Iranian surrogates and Russian 
airplanes. And Iran is probably there with Syria.
    But I think that the first thing is we should embrace that. 
We should put people into those negotiations, bring in the 
Europeans, and put pressure on Russia, as part of our 
relationship with Russia, that we want that thing to hold. 
Also, with Turkey.
    And I think that there is a real chance of that happening 
because retaking the rest of Syria is not an easy job, and the 
Russians seem not to want to get bogged down in Syria, despite 
their military victory in Aleppo.
    In the rest of the region, you have a situation in Yemen 
that is quite critical. You have a situation that is brewing in 
Afghanistan with Iran. You have a situation that is relatively 
quiet but it is not good in Lebanon.
    But throughout the region, basically, it should be clear 
that the United States is going to work in various ways against 
the expansion of Iranian influence. And that is totally aside 
from the nuclear agreement.
    Senator Coons. I could not agree with you more, that 
containing Iranian aggression, attempts at expanding their 
hegemony, is a key goal for our foreign policy, both in our 
engagement after Mosul is retaken and in how we act in the 
region.
    Let me just ask a quick question. Since you both identified 
ISIS propaganda, their ability to reach out and radicalize, as 
their most effective weapon, does it not simply strengthen and 
expand the reach of that weapon to have an executive order in 
place that correctly or not is being characterized throughout 
the Muslim world as an anti-Muslim ban.
    Mr. Bash?
    Mr. Bash. It has already been utilized by ISIS sympathizers 
on Telegram, one of the social media entities I referenced 
earlier. And one of the arguments, just to put a little bit of 
a sharper focus on it, is ISIS has always said, hey, let us 
look at how America treats its own Muslim population, and you 
can judge America that way.
    And then when we do not allow back into the country lawful, 
permanent residents who are of the Muslim faith, back into the 
country that they are legally here, and we do not allow others 
to be reunited with their families, we do not allow the tens of 
thousands of students who are studying in our own universities 
and colleges to actually be here or to travel home and come 
back, I should say, then I think it actually validates, in some 
ways, ISIS's claim.
    Senator Coons. Well, Ambassador, I appreciate you also 
observing that Iraq should not have been included. I think it 
is a pressing security threat for us to have partners in an 
ongoing fight now not allowed to come here for training, for 
consultation, those who kept troops alive on the battlefield 
not able to come home.
    And it is my hope we will find ways to address this.
    Thank you, Mr. Chairman.
    The Chairman. If I could--I agree with that, but are you 
saying the others should have, in making that statement? And 
are you agreeing with that?
    Mr. Bash?
    Mr. Bash. I am sorry. I do not understand the question, Mr. 
Chairman.
    The Chairman. The statement he made was Iraq should not 
have been included. I agree with that. But that sets the 
premise the others should have.
    Mr. Bash. I think the construct of the ban was ill-
conceived. I think banning travel from entire populations 
without regards to specific intelligence and terrorism threats 
I think was a mistake for reasons that we have talked about.
    So my recommendation would be to look at vetting 
procedures--I think that is always appropriate--but not to do 
it in the context of a travel ban.
    The Chairman. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you to both of you for your endurance today. It is a 
heavily attended committee hearing, which is a very good thing, 
I think, for the committee. So thank you very much for being a 
part of it.
    Mr. Bash, I want to clarify or follow up a little bit on 
the answer you gave to Senator Young, talking about the Muslim 
faith. I do not want to put words in your mouth, so I want to 
make sure I understood what you said.
    In talking about it, I think the question about most 
people, the predominant majority of people in the Muslim faith 
are of peace and reject terrorism, an overwhelming number. But 
you said, when he asked what more should be done, I think, Mr. 
Bash, you said something about we need those to share, we need 
people to share a proper review of Islam.
    Could you talk a little bit more about that, what you mean, 
who you mean, and what can be done about that?
    Mr. Bash. As I have traveled in the Middle East, and I was 
there not long ago speaking with leaders, particularly in the 
gulf, I mean, their view, and I credit this, is that what ISIS 
has done successfully, and to some degree what the supreme 
leader has done in Iran on Shia side, is perverted Islam and 
perverted the religion, done things in the name of the religion 
that, in the view of more moderates in the region, is not 
consistent with the way they think Islam should be practiced.
    And I think we should listen to those people, and I think 
we should empower them and look for ways to have their view of 
their own religion----
    Senator Gardner. But is that not something we have been 
trying to do since over a decade ago, looking for those voices, 
trying to strengthen those voices----
    Mr. Bash. Yes.
    Senator Gardner.--trying to find a platform for those 
voices. So why have all those efforts failed, if we still need 
to do it?
    Mr. Bash. We have been trying to do it. We need to do it 
more. I would not put it in a binary of it has worked or it has 
failed. There are places where it has worked. There are places 
where it has not worked.
    I think we need to, obviously, expand the efforts so that 
it works in additional places.
    Senator Gardner. Again, this is something that we have been 
talking about. We have been pursuing it at the Global 
Engagement Center. This conversation has been held multiple 
times before this committee on how do we find those moderate 
voices, those reasonable voices that agree with the vast 
majority of people in the faith that reject this?
    So I would love to follow up more with how we can do a 
better job, because I do put it in the terms of have we 
succeeded or have we failed, because, if it is still happening, 
if ISIS is still radicalizing people, if their ideology is 
spreading, then we have not succeeded.
    So anyway, I think we can follow up a little bit more on 
that.
    I want to talk a little bit about, Ambassador Jeffrey, in 
your statement, you said that it is difficult to see how 
Washington can pursue anti-ISIS operations in Syria without 
Turkish bases and other cooperation. Can you talk a little bit 
about the Turkish-Russia activities and what that means for the 
U.S.?
    Ambassador Jeffrey. Turkey has had a 250-year running 
conflict with Russia to its north. Russia's expansion in the 
16th through 19th century came at the expense of Turkish 
territories, to a significant degree in the Balkans, in Crimea, 
and in other places, the Caucasus.
    And so there is a deep suspicion, and it is a classic case 
of, if you have two major powers in one area, they tend to not 
get along.
    That said, there are energy ties and other ties with 
Russia. Russia is a big player. Turkey knows it.
    The current war, of course, with the fight in Syria where 
Russia and Turkey were on opposite sides. You know the history. 
Turkey shot down the Russian fighter that went into Turkish 
territory. A strong reaction but still a limited reaction on 
the part of Putin, and a military offensive that Putin 
supported in Aleppo against the forces that Turkey was backing. 
Turkey was backing, very strongly, forces who wanted to 
overthrow Assad. Some of them were people who we would not want 
to work with, but a lot of them in the Free Syrian Army were 
people we were also working with. We cooperated with Turkey to 
train many of those people.
    Then, at the end of the day, Turkey wanted to do a no-fly 
zone, ultimately. And they wanted to do it with us. They wanted 
to have a no-drive zone. They eventually did it themselves, and 
they seized a huge chunk of northern Syria, partially to block 
the Kurds but also to go after ISIS and also to put pressure on 
Assad. They had a three-way purpose in that.
    But they were evermore disappointed that we were not in the 
fight with them in any sort of way. They did not see a policy 
toward Syria, and they did not see a policy toward Iran. And 
frankly, I think they were right.
    And at the end of the day, they were presented with a fait 
accompli. Their side lost the battle of Aleppo. The western 
Syrian battle was basically over. And to save what they could 
of their Free Syrian Army Forces, many of whom are still under 
arms and coordinating with the Turks, they decided to work this 
deal with the Russians, the Astana ceasefire.
    But the Turks are very unhappy at Assad's violation of 
this. They keep on saying, at least for the record, that they 
are opposed to Assad. They think he needs to go. And they are 
uncomfortable with this second-class status that they have been 
given with Russia.
    And, thus, I think they are very willing to work with us. 
And I see all kinds of signs----
    Senator Gardner. There are no threats to U.S. interests in 
Syria or Iraq as a result of the Russian-Turkey operations?
    Ambassador Jeffrey. No, I do not. I think that Turkey feels 
forced into this. They would love to have a situation where 
they could--I do not want to paint too--where they could play 
us off against the Russians. We will not like it, but it is 
better than where we are now, because right now, there is no 
gain. They just basically have to go along with the Russians.
    Senator Gardner. I am out of time, but at some point, we 
can follow up a little bit more about ISIS and Jakarta, and the 
attacks in Jakarta in 2016, Southeast Asia. I think it is 
important that we view ISIS and this issue not just as a Middle 
East or Europe or even a distant threat to the U.S., I think 
somebody had said, through attacks but also talk about what is 
happening in Southeast Asia.
    The Chairman. Senator Rubio is walking down, if you would 
like to filibuster by asking about that.
    Senator Gardner. I would love to ask that question.
    The Chairman. If Senator Cardin does not object.
    Go ahead.
    Senator Gardner. Just again, I will make it quick, talk 
about Southeast Asia, talk about the threat that ISIS poses. 
About 600 known fighters in Southeast Asia right now. We have 
counterterrorism efforts in place.
    Are those sufficient? Do we need to do more? How is our 
partnership on counterterrorism efforts proceeding?
    Mr. Bash. I think we could always do more in the field of 
intelligence cooperation and law enforcement training. We have 
had some good experience with countries in Southeast Asia 
countering the Al Qaeda threat in the aftermath of 9/11.
    Of course, you referenced Indonesia. That is where Hambali 
was. In working with allies and key partners there, we 
successfully took him down.
    Again, this is a place where I think Australia could be 
critical, because as you talk to officials in Canberra, one of 
the things that they are very concerned about is the ISIS 
threat in Indonesia, in Jakarta, in Bali, and elsewhere. And 
they can play a very constructive role in working with us 
there.
    Senator Gardner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Rubio. Thank you.
    Thank you both for being here. It is a busy day, a busy 
night, a long night.
    And I apologize if this has been asked before. Let me just 
ask your opinions on the following, and that is, there has been 
a lot of talk, some out there arguing, well, you know, Assad is 
a bad individual but he is better than the alternative.
    I have often said that, irrespective of what happens in 
this conflict, as long as--given both the nature of the Assad 
regime and everything that has transpired, that as long as 
Assad is in power, or those close to him are in power, given 
what has occurred in Syria, there will always be--Syria will 
always be ripe for a Sunni resistance to his rule, that it is 
difficult to go to someone who has had their family 
slaughtered, who has faced deep oppression, and somehow ever 
get them to fold into national unity under the rule of an 
individual responsible for those these sorts of horrific acts.
    Do you share that view, that it will be very difficult if 
not impossible for Syria to ever be peaceful and unified as 
long as someone with as much blood on his hands as Assad is in 
power?
    Mr. Bash. I strongly agree with that statement, Senator 
Rubio. Assad has used chemical weapons to kill at least 1,400 
of his own civilians, including several hundred children. As we 
noted earlier in the hearing, we had to witness on our own 
televisions, in a manner that was inappropriate for young 
children to be in the living room when these scenes were being 
shown, the way the Assad forces were liquidating the city of 
Aleppo and slaughtering civilians and making it impossible for 
relief organizations to be there.
    So I agree 100 percent with your statement.
    Ambassador Jeffrey. The Assad system is exactly what you 
described, Senator, because as Jeremy said, it is absolute 
brutality against the entire population, with some exceptions, 
of Syria. Anybody who gets in the way gets thrown in jail, gets 
tortured, and the mass slaughter of thousands of civilians, 
poison gas, all of that.
    It is possible to imagine scenarios where Assad is left in 
power as a figurehead as part of some kind of compromise of 
countries in the region and outside of the region agree to, as 
long as the system goes away. But as long as that system, which 
only goes on one speed, which is oppression full out, 
continues, you are not going to have peace in Syria. And 
without peace in Syria, you are not going to have peace in the 
region.
    Senator Rubio. Yes. I guess the broader point I have always 
been driving, and it sounds like you both either directly agree 
or largely agree with, is that there are a lot of people who 
talk about this notion that Assad is terrible but he is better 
than the alternative. I guess my argument is, as long as Assad 
is there, given everything that has transpired, you are 
basically providing the fuel and the conditions. Even if ISIS 
is wiped out, you already see Jabhat al-Nusra, or whatever 
their new name now is, stepping into that void.
    In essence, given everything that has occurred, there will 
always be a Sunni resistance that will tend toward 
radicalization in some cases, if no other alternative is 
available. I just make the argument to people that Assad is one 
of the reasons why we have an ISIS. He is not a counter to 
ISIS. He is, in many ways, one of the reasons that accelerated 
the rise of ISIS and those radical Sunni elements within Syria.
    I know I am running out of time and I know you have had a 
long hearing, so let me just ask you this. There is also some 
discussion out there about basically figuring out a way for the 
United States to leverage or to peel Russia off of their 
alliance with Iran and, in particular, work jointly together on 
trying to defeat ISIS in Syria and beyond.
    But I guess my point is, how realistic do you think that 
sort of strategy is? And what would we have to give up, in your 
estimation, in other parts of the world in order to entice 
Vladimir Putin to both cut ties with Iran or at least the 
alliance they established with Iran, albeit an alliance of 
convenience, and also become more active participants in the 
fight against ISIS? How realistic is that strategy, which I 
know others have flirted with? And what would we probably have 
to give up in other parts of the world to make that something 
that Putin would find enticing?
    Mr. Bash. Senator, the United States of America tested that 
proposition over the last 6 months, and the test failed. We 
tried to enlist them in a productive manner in Syria, and their 
military operations were imprecise, counterproductive, and they 
did things in the name of counterterrorism that were actually 
counterproductive to our efforts; in other words, taking out 
the moderate forces that could be a leave-behind force in 
Syria.
    So I think I agree with the premise of your question. And I 
do not believe that we could do a grand bargain with Russia 
where we outsource the ISIS fight or somehow enlist their 
effort to moderate Iran's influence.
    Ambassador Jeffrey. Specifically, on the ISIS fight, 
absolutely not, other than carpet-bombing civilians, there is 
nothing they really can do militarily in this campaign.
    The larger question of Iran, assuming we have what I would 
consider a healthy strategy toward Iran--which we did not in 
the last administration; they are working on it now in this 
administration--then there are areas where you can try to peel 
off Russia because Russian and Iranian interests are not 
identical.
    But that is a longer term effort, and it should not start 
with giving them any invites to the Raqqa battle.
    The Chairman. If I could highlight, again, Russian troops 
are not even trained to deal with this type of issue that we 
have in Raqqa. Is that correct? I mean, all they can really do 
is what you just mentioned, carpet-bomb. They are of no use, 
are they, relative to a ground effort in Raqqa?
    Ambassador Jeffrey. They had some very high-end forces that 
we would call special forces, but they are closer to the 75th 
Ranger Regiment; that is, highly trained light infantry. And 
they did deploy some of those people at times, which is why I 
cited that earlier in my argument that we need to put some 
elite ground troops in.
    And those forces are pretty good, but they are nothing in 
numbers or quality like what we have between the United States 
and our NATO allies. We have tens of thousands of people who 
can do that and who have been doing this for a decade in 
Afghanistan and Iraq.
    The Chairman. Senator Cardin?
    Senator Cardin. Well, let me thank you for your testimony. 
As I was listening to the members ask their questions and your 
responses, I think there is general consensus here that we do 
not want to see U.S. military in a sustained ground combat 
operation. There are different views here as to whether it is 
appropriate for us to interject our special forces and how we 
interject our special forces, or how we deal with the 
uncertainty of what occurs, where we may need to use U.S. 
forces for rescue, need U.S. forces for an urgent need.
    And I say that because President Obama submitted an AUMF 
that restricted our combat to no sustained ground combat 
operations, and we all scratched our heads at the time and 
said, what does that mean?
    And I agreed with the chairman that it was impossible for 
us to get unity to pass an AUMF. We have disagreements whether 
the 2001 AUMF covers the operations today, and that is never 
going to be fully resolved because there is no way to resolve 
that, whether it covers it or not. The President is operating 
under it, and there is no way of really legally challenging it, 
other than through the appropriations process, which is a tool 
that will not be used, because it affects the safety of our 
military.
    So I mention that because, Mr. Chairman, we are going to 
have to revisit this at some point, because I do think there is 
general consensus against us using combat troops on a sustained 
basis in Syria or Iraq, that that would be counterproductive 
or, by the way, in the other regions in which ISIS is now 
operating.
    That would be, I think, looked at as counterproductive 
because it would be used as a recruitment tool. It would make 
it more difficult for us to govern after the combat operations 
are over. And you are not going to be able to hold unless you 
have the local will and capacity to hold regions.
    For all those reasons, we have to be cautious. We want to 
get rid of ISIS. We want to get rid of terrorists. But we have 
to have a game plan.
    Mr. Chairman, you have been one of the first to point out 
that that may not have been true in our Libya campaign. We did 
not have an idea what was going to happen after we got involved 
in Libya.
    So I just make that as a word of caution. And I would 
welcome our two witnesses, and maybe would ask this for the 
record, how would you frame an AUMF where Congress is weighing 
in to support the operations, recognizing that many of us would 
be reluctant to an open-ended AUMF because we believe we have 
responsibility to authorize sustained operations, and we are 
not prepared to give that congressional authority today?
    So it would be interesting to see.
    But as far as the use of our military, I could not agree 
with you more. They have the capacity, the unique capacity. No 
other country can do what we can do, whether it is our combat 
troops or whether it is our special forces troops or whether it 
is the people who are in intelligence in the military, they do 
the best. And without their participation, it is hard to 
imagine we could come to any type of successful completion to 
what is happening today against ISIS.
    So I think there is probably more agreement than 
disagreement. But the question of how does the Senate, how does 
the Congress, weigh in is a much more difficult assignment. If 
you have thoughts on that, I would be willing to listen.
    Ambassador Jeffrey. As an advocate for non-sustained ground 
troops--and, of course, definitions are everything--what are 
ground troops? Are they a forward observer team? Is it special 
forces on a raid? I am talking about essentially a number of 
maneuver battalions, 500 to 800 strong American units 
participating in ground fire and maneuver.
    I think that if we can do operations without that, we 
should because we are basically in internal conflicts and we 
want to, for many reasons, put the burden on the locals, but as 
much local as possible, as much American engagement as 
necessary.
    And we come very close to that, Senator, with the 10,000 
troops we have in Afghanistan. They get involved in more 
fighting than the folks do in Iraq that we have, the 5,000.
    The second thing is, I am troubled by this artificial line 
that special forces can go out and do raids and shoot people up 
and get shot in the process, and artillery can fire and Apache 
helicopters can fire rockets, but that is not ground combat. 
But a U.S. tank company cannot lead an assault on a very dug-in 
ISIS force.
    If we could do this with somebody else, fine, but let us 
not wait. The Mosul battle has been going on. And, all in all, 
it is successful. But it has been going on for 3 and a half 
months, and we still have to take the hardest part of the city 
in the west.
    And there is a cost to doing these things. Maybe we will be 
okay, but every month you get bogged down in a conflict, there 
is a risk that something will happen, an ally will fall out, a 
new development will come in. There is something to be said for 
rapidity in any operation, diplomatic or military.
    In terms of an authorization for the use of military force, 
I think there were two elements, if I remember, because I gave 
testimony either here or in the House on authorization. And the 
two concerns were, first of all, the limitation on sustained 
use of ground troops. I think that needs to be worded 
differently because it just was troubling from many 
standpoints.
    Senator Cardin. We are all looking at new language these 
days.
    Ambassador Jeffrey. The other thing was, there was--I do 
not know whether it was a geographic--it was everywhere in the 
world. And that was a little bit troubling too. If you are 
going to authorize the use of military force, as this chamber 
knows very well, dating back to 1964, you really have to be 
careful what you authorize.
    Senator Cardin. And then, lastly, there was a challenge of 
whether this would be the exclusive use of the authority, 
whether we would repeal 2001 or whether 2001 would still stay 
in. So there were different--and whether it would have a sunset 
or not have a sunset.
    There were many open issues about how we would do this, so 
it was not free from challenges. But the bottom line is, what 
is the appropriate authorization for the use of force by 
Congress?
    Mr. Bash. And maybe I will add as a coda, Senator Cardin, 
if you just tell the Defense Department, ``Give us some 
options,'' the last slide is going to be the low, medium, and 
high option. And I sense the struggle here among all of us to 
figure out what are the right numbers, what are the right 
missions, what are the right capabilities we want to have in 
country.
    And I think the premise of this hearing, and my 
recommendation would be, do not make that decision in 
isolation. Think about the comprehensive approach. What else 
are we doing diplomatically? Who else is with us in the fight? 
What is the nature and capability of the ground forces of local 
partners that we will be employing? How good and precise are 
our airstrikes? What kind of intelligence precision do we have?
    I think if you look at the entire picture, that will inform 
the low, medium, and high decision that the Defense Department 
will inevitably come forward with.
    Senator Cardin. Thank you all.
    The Chairman. Thank you both. Of course, the authorization 
is something that I think we will be dealing with here in the 
next couple months.
    I think the first step, as it relates to Syria, is to have 
the administration lay out a plan and for them to come before 
us and talk about the details of that. I think this hearing has 
been really, really useful in that regard.
    Back to the AUMF component, I mean, that would then help us 
as it relates to Syria itself. But then there is this global 
issue that we are dealing with, that each circumstance could 
develop into something very different.
    So just for what it is worth, I know that you had some 
things on the floor. I am not sure there is that much unanimity 
on what we should do. There was a lot of conflicting thoughts.
    I think that there are many people who believe that, when 
you authorize the military, you should just authorize the 
military. And then I think there are others that feel like 
there should be more of a management there relative to what we 
do.
    But again, here, today, the hearing is really about what we 
are going to do right now in Syria. I know that is what Mattis 
has been charged to do. My guess is Tillerson will be highly 
involved in that.
    And I think this whole issue that you both are alluding to 
relative to ground troops, not to be pejorative, the last 
administration's reticence caused much of that to occur. It has 
no doubt affected where we are today. I mean, we keep looking 
in all of the--I do not really see a force on the ground by 
itself that is capable, on one hand, of dealing with this. We 
have elements that do not particularly get along well with each 
other.
    And so it is going to be interesting, as they walk through 
this process, to try to weave the Turks, the Arab-supported 
Turks, the Arab-supported Kurds, the Kurds, the Russian-Iran 
component, trying to weave that together into something that is 
coherent to me is going to be very, very difficult. And I think 
this hearing has been most useful in describing that, 
describing those complications.
    Jeffrey, if you would, if you were the person waving and 
describing how it is going to be most focused, which of those 
areas would it be?
    Ambassador Jeffrey. Really quickly, one, we wrung our hands 
about the Balkans for 3 years because of exactly all of those 
same complications. And then we acted. And suddenly, almost all 
of them melted away. They melted away good enough for 
government work.
    I think the Middle East is more difficult. We are in a very 
dangerous situation with multiple foes, with multiple 
complications. I think that if Iran understands we are going to 
contain Iran; Russia understands that we are not going to try 
to throw it out of the Middle East but that we are also going 
to watch carefully what it does in the region; Turkey believes 
that we are not going to develop this relationship with what 
they think is a potentially existential threat, the YPG branch 
of the PKK in Syria; and that the Iraqis know that we are not 
going to try to use them against Iran but that we also do not 
want to go away, I think that, bit by bit, we can put this back 
together because we have the military, we have the political, 
we have the economic power.
    And when you add up all of our allies and friends in the 
area--we have not talked much about Israel, about Saudi Arabia, 
about all these other countries--they are capable of being 
mobilized for some kind of plan like this.
    And I think it is eminently doable over time, but we have 
to start with whacking ISIS and making it clear that Iran is 
somebody that we are not going to let take over the region, and 
it will flow from there.
    The Chairman. I think that is a good way to close the 
hearing. If you would answer questions, we are going to leave 
them open until close of business tomorrow, Thursday. I know 
that you have other things that you do during the day. But if 
you can answer those as quickly as possible, we would 
appreciate it. Thank you both. I think this has been an 
outstanding hearing, and I think it has caused everyone up here 
to think about this in a little different way, and we will have 
hopefully something that comes out of the administration that 
can be supported and can be successful with the help of your 
testimony today.
    So thank you. The meeting is adjourned.
    [Whereupon, at 12:09 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


         Responses of the Honorable James Jeffrey to Questions 
                    Submitted By Senator Todd Young

    Question. What are your detailed assessments of the State 
Department's Global Engagement Center?

    Answer. Under former DoD Assistant Secretary Lumpkin the Center has 
taken a more indirect approach working with those in the region and in 
the United States who are more closely connected to communities 
vulnerable to jihadist recruitment. The difficulty with this Center 
with its current and former programs is that, first, measurement of 
success is extremely difficult. Second, its `target audience', those 
tempted to support or join violent Islamic movements, is an extremely 
small portion of the global Muslim community, and their motivations 
typically are highly differentiated from individual to individual. 
Nevertheless as an element in a whole-of-government approach to violent 
Islamic extremism, the Center should be supported.

    Question. As ISIS loses territory in Iraq and Syria, should we 
expect many ISIS fighters to attempt to flee and return to their home 
countries or to travel to ungoverned or weakly governed areas 
elsewhere? Should we expect them to travel to the U.S. or Europe in 
order to conduct terrorist attacks? How will most of the ISIS fighters 
go about fleeing Iraq and Syria? Will they flee through Turkey? Is 
Turkey doing all that it can to prevent this terrorist exodus? How can 
the U.S. help capture or kill these terrorists as they flee Iraq and 
Syria?

    Answer. At least the foreign fighters will flee Iraq and Syria once 
the ISIS `state' is defeated, as their inability to speak local 
dialects makes them identifiable to security authorities once they are 
no longer `embedded' in an ISIS community. Some will travel to the 
Sinai, possibly Libya, Yemen, or Afghanistan, but many likely will try 
to return to their homelands, especially in Western Europe or the 
former Soviet Union. Given the already extensive vetting of foreigners 
traveling to the U.S. receive, and the likely intensification of that 
under the Trump administration, few are likely to reach the U.S. Many 
will unfortunately be more successful reaching Europe, a concern for us 
as attacks by them there threaten the security and stability of 
American allies.
    Only a small number of American citizens have joined jihadist 
movements in Syria and Iraq, but they pose a potential threat because 
as citizens they are not routinely vetted upon reentry into the U.S.. 
Specific intelligence programs are important to identify such people. 
There is also a limited danger of European passport holder veterans of 
jihadist campaigns entering the U.S. for example via the visa waiver 
program. The Obama administration modified that program to deal with 
this threat and every indication is that the Trump administration will 
further intensify it.
    Clandestine travel of jihadist elements from Syria and Iraq is 
currently easiest through Turkey, but Lebanon, Jordan, Iran, and Saudi 
Arabia cannot fully control their borders either. Turkey of late has 
taken extraordinary efforts to shut down ISIS-linked sponsors and 
sympathizers, but could do more. The U.S. is already working very 
actively with all of these border states. Assisting them with 
intelligence, training and certain military and intelligence equipment 
to enhance their effectiveness should be a central priority once the 
ISIS `state' is defeated.

    Question. Do you both believe that there will be no durable defeat 
of ISIS in Syria if the U.S. agrees to a Russian demand to keep Assad 
in power and fails to insist on the establishment of an inclusive 
government in Damascus that protects rather than murders its own 
people?

    Answer. It is possible to envisage an end to ISIS as a state and 
army even if Assad were to stay in power, if the U.S. remained very 
active against ISIS remnants in Syria and Iraq. However, as long as 
Assad remains in power a major portion of Syria's Sunni Arab 
populations will resist him, and some doing so will join ISIS (or al 
Qaeda). While ISIS may not be able to reconstitute its `state' with 
control of wide swaths of territory, it certainly could sustain itself 
as an underground terrorist organization able to attack the Syrian 
population and government, and those of its neighbors. It also could 
launch or inspire terrorist attacks in the U.S. or Europe.
    The end of the Assad regime, particularly, as the question noted, 
if replaced by a more inclusive and decent government, will reduce 
dramatically the recruitment appeal of ISIS. While ISIS could still 
survive, its strength and capabilities would be dramatically weakened.
    Finally, as long as Assad remains in power, Iran continues its 
expansion throughout the region, and in particular Assad and his 
Iranian allies attempt to conquer all of Syria, there is a risk of a 
region-wide Sunni-Shia conflagration. Under those circumstances large 
numbers of recruits could flock to ISIS or al Qaeda as they are seen as 
among the most effective fighters in a religious conflict with the 
Shia.

    Question. Do you both believe it is in U.S. national security 
interests to retain U.S. military personnel in Iraq after the fall of 
Mosul, if so why? How many troops, where, and for what purpose? Do you 
believe the Iraqi government will want to keep U.S. troops in Iraq 
after the fall of Mosul? Do you believe Iran will try to expel the U.S. 
military presence in Iraq after the fall of Mosul?

    Answer. It is very much in the U.S. interest to keep a contingent 
of troops in Iraq, in Baghdad itself and on a handful of Iraqi bases 
including those in the north in the Kurdistan Regional Government. The 
ostensible purposes of these forces, probably around 5,000 in number, 
would be to, as planned in 2011, train Iraqi forces, exchange 
intelligence, and assist in counter-terrorist operations against ISIS 
or al Qaeda remnants. But such a presence would support broader U.S. 
diplomatic goals by demonstrating U.S. engagement and interest in Iraq, 
giving the U.S. `eyes on' for developments in the Iraqi armed forces, 
and potentially enabling other Western nations or NATO to, keep small 
training contingents in Iraq, as in the past and again currently 
against ISIS,.
    Once ISIS is defeated some Iraqi elements for nationalistic 
reasons, and others influenced by Iran, will certainly push for a total 
U.S. withdrawal. There are strong arguments which the U.S. and those 
desiring our forces can make in response: First, the need to integrate 
the over $10 billion of military equipment Iraq has purchased from the 
U.S; Second, the failure of Iraqi security forces against ISIS after 
the U.S. withdrew in 2011; Third, the need to keep the KRG, which is 
very interested in U.S. forces remaining on its territory, within the 
Iraqi union. More subtly, many Iraqis would see a U.S. presence as 
`balancing' Iranian influence which is resented by Iraqis of all ethnic 
and religious backgrounds.
    A legal basis for the U.S. presence could be found in the 
``Strategic Framework Agreement'' of 2008 between the U.S. and Iraq, 
and the various exchanges of letters governing the U.S. presence since 
2014.

    Question. Do you believe we should establish safe zones in Syria? 
What are some of the benefits and challenges associated with 
establishing safe zones in Syria? Where in Syria do you believe these 
safe zones should be located? Who would defend and secure these safe 
zones on the ground? Would you support the U.S.-led coalition 
protecting these safe zones from the air?

    Answer. There are already informal `safe zones' in Syria, a small 
one along the Jordanian border where the U.S. and others have trained 
the Syrian resistance, the Turkish zone west of the Euphrates for about 
95 miles, and up to 20 kilometers deep, and the Syrian Kurdish PYD 
``Rojava'' areas of Korbane East of the Euphrates, and in Afrin 
northeast of Aleppo. The U.S. could expand those zones, for example to 
include the areas around Raqqa once liberated.
    U.S. advisors and U.S. aircraft routinely operate in those areas. 
While there is not a formal `no fly zone' declared or defended, 
deconfliction between the U.S. and coalition aircraft (and Turkish 
aircraft in the Turkish zone) and Syrian and Russian aircraft routinely 
occur, and the U.S. by press accounts has scrambled fighters on 
occasion to intercept Russian or Syrian air missions over `our' areas.
    The U.S. working with Turkey and local forces could `formalize' 
these regions for the following purposes: (1) invite in refugee 
agencies to establish refugee centers, thus relieving refugee pressure 
on the EU and reducing the threat of jihadists traveling to the U.S. or 
other NATO states; (2) leverage these zones to enforce the Astana cease 
fire for Syria; (3) advance the goal shared by the U.S. and most of the 
region to see a post-Assad inclusive government of Syria; (4) use these 
zones as `lily pads' to operate with local forces against ISIS remnants 
and al Qaeda.
    The U.S. along with Turkey and whichever coalition forces wish 
could establish `control' over these zones with fighter aircraft, 
drones and surface-to-air missiles. (Critics of the idea stress that 
the U.S. and allies would have to operate within the `umbrella' of 
Syrian and Russian air defense. They forget that Russia and Syria have 
conducted their operations inside the `fan' of U.S., Turkish, NATO, 
Arab states and Israeli radar, air defense and fighter-interceptor 
forces continuously).

    Question. As areas in and around Mosul are liberated, how is the 
Iraqi government doing managing the behavior of the Shia Popular 
Mobilization Forces (PMF) to avoid the mistreatment of Sunni residents 
that could make them susceptible to ISIS recruitment? When ISIS 
controlled areas are liberated, how is the Iraqi government doing in 
rapidly restoring government services and establishing inclusive 
governance? Do you agree that the Iraqi government's ``Phase IV 
operations'' in Sunni majority areas are essential to the durable 
defeat of ISIS in Iraq? How can or should the State Department and 
USAID support the Iraqi government's efforts to establish responsive 
government services and inclusive governance for Sunni populations to 
prevent the return of ISIS?

    Answer. Apart from some initial outrages by PMF elements in 
liberated zones in 2014 and again during the 2016 Fallujah campaign, 
the PMF elements have behaved tolerably well with exceptions (typically 
by more Iran-oriented elements) throughout Iraq.
    Once areas are liberated the most important `initial steps' are to 
provide immediate relief (medical, nutrition, etc), reestablish local 
police forces, and remove the PMF elements. There are government 
institutions both local and federal that can quickly engage or be 
reinstituted as we have seen in Anbar and Saladin provinces. More 
sustained, as noted, ``Phase IV'' counterinsurgency efforts in 
economic, political and security realms for reconstruction and 
reconciliation will be needed to discourage elements of the Sunni 
population from joining ISIS or al Qaeda elements. As the U.S. has 
learned in its own Phase IV operations, however, durable success is 
uncertain, long-term, and resource intensive. Nevertheless, any 
palpable progress, combined with a more inclusive political attitude on 
the part of the Baghdad central government towards its Sunni citizens, 
likely will deter many from again taking up arms.
    The U.S. can assist first with immediate relief and assistance 
programs and efforts to reconcile former foes, including through USAID 
and NGO's such as USIP. More generally, the more engaged the U.S. is in 
Iraq, and in particular with a long-term military presence, the more 
leaders in the Sunni (and Kurdish) communities will put their faith in 
a unified and democratic Iraq. That is the ultimate barrier to 
reconstitution of ISIS or al Qaeda.

    Question. What do you believe were the main weaknesses of the Obama 
administration's approach to ISIS? What should the U.S. be doing in 
Iraq and Syria that we are not?

    Answer. Initially, the Obama administration made light of the 
threat, notably in the President's quip about it being the ``J-V'', 
although members of his own administration, outside observers, and 
Iraqis, were warning publicly of ISIS' threat as early as late 2013. 
The Obama administration's lack of effective response after ISIS seized 
the city of Fallujah in January 2014 was especially irresponsible. Its 
initial response after the fall of Mosul in June 2014 was too limited, 
although justified by the effort to leverage U.S. firepower in return 
for a replacement to Prime Minister Maliki, who contributed greatly to 
ISIS's rise by his neglect and oppression of the Sunni Arab population. 
After August, with Maliki's replacement and the commencement of U.S. 
airstrikes, the administration led the effort to slowly roll ISIS back, 
but this effort was characterized by half-measures, an obsessive 
commitment to zero civilian casualties, a preoccupation with avoiding 
U.S. casualties and a significant U.S. force deployed, and, in general, 
a lack of political will to win. The result again was a very slow 
liberation of territory from ISIS as well as one setback, the fall of 
Ramadi, to some degree the fault of the U.S.
    After November 2015 the administration gave the ISIS fight a much 
greater priority, loosened somewhat tight rules of engagement, 
committed more advisors, and initiated some `ground combat 
operations'--SOF raids, artillery, attack helicopters. The effort 
against ISIS thereafter gained momentum, but is still hampered by the 
U.S. refusal to put any U.S. ground maneuver units into the battle.
    As noted in my written testimony, the U.S. needs a stronger 
military effort against ISIS, generated by more U.S. forces committed 
to combat, including perhaps limited--battalion or brigade level--
ground maneuver forces, and diplomatic coordination of our various 
allies including in Syria the Kurdish YPD and its allied Arab 
contingent in the Syrian Defense Force (SDF) and the Turkish army and 
its allied Free Syrian Army (FSA). Military success against ISIS and 
diplomatic success unifying U.S. allies will also assist the U.S. in 
dealing with the larger questions of Iraq, Syria and Iran noted in 
answers to 3, 4 5, and 6 above.

    Question. As ISIS loses territory in Iraq and Syria, shouldn't we 
expect it to transform into a more traditional terrorist insurgency in 
both countries? What should the U.S. and our partners be doing now to 
prepare for that predictable development?

    Answer. There is no doubt that ISIS will seek to act as an 
insurgent force just as it was (under the name ``al Qaeda in Iraq'') 
before the Syrian civil war.
    Our major step to avoid that would be to continue the coalition and 
the `all-elements-of-government' approach, essentially the 
recommendations made for U.S. and others' courses of action in 1-5 
above. In addition the containment of Iran by the U.S. will eliminate 
one of the major recruiting tools for ISIS.

    Question. Is Iraqi Prime Minister Abadi in danger of losing his 
position? Why? What would be the implications of that for U.S. 
interests?

    Answer. Abadi's government is weak. Apart from his own 
organizational problems this stems primarily from in-fighting among 
Shia factions but also to a serious split between the Kurdish parties 
and the lack of a unified Sunni political movement that could support 
him as the `least bad' of Shia political leaders. Iran in particular is 
maneuvering to either replace or weaken him, probably by supporting a 
return to power of former Prime Minister Maliki.
    Nevertheless the Kurds and Sunni Arabs likely prefer Abadi to any 
other leader, Muqtadah al Sadr although unstable has a large following 
and also would prefer Abadi to Maliki, as would most of the senior 
clerics in Najaf. So Abadi may be able to hold on to his position.
    Losing Abadi as prime minister, especially if replaced by Maliki or 
another figure seen as close to Iran, would be a disaster for the U.S. 
and for the effort to avoid a resurgence of ISIS, which would be 
facilitated by a pro-Iranian government in Baghdad especially if led by 
Maliki.
    The U.S. can avoid this by remaining engaged in Iraq. A U.S. 
military presence has to be adroitly `sold' to the Iraqis, in 
particular involving neither U.S. `bases' nor an officially `permanent' 
or `combat' presence. The Iranians will react against that, which 
argues for warning Iran that if it wants Iraq to be stable and united 
it should not oppose a limited U.S.presence which would have the same 
goal.

    Question. In order to durably defeat ISIS and to prevent the 
emergence of other Sunni insurgent and terrorist groups, do you believe 
it is important for Sunnis in Iraq and Syria to feel fully represented 
in Baghdad and Damascus? Do you believe a failure to establish such 
governance will ensure that ISIS and other Sunni insurgent groups will 
continue to find a sympathetic population from which to recruit?

    Answer. The more integrated Sunni Arabs feel themselves to be into 
governments in Baghdad (where if democratic they will be in the 
minority) and in Damascus (where as long as Assad and his Alawite 
ethnic group rule their role will be constrained), the less they will 
turn to ISIS or other Sunni extremist groups. But the U.S. even at the 
height of its presence struggled to reach true Sunni Arab integration 
into the Baghdad government, and the Syria civil war is largely about 
that question. Thus this is a very difficult task to fully accomplish.
    Nevertheless, good faith efforts in either capital towards 
inclusiveness, palpable economic and security progress in Sunni Arab 
areas, and engagement by the international community led by the U.S. 
(seen as more balanced to the Sunni Arabs) all can reach a `good enough 
to work' level and keep recruitment to radical groups under control.

    Question. What is your assessment of the post-coup crackdown there? 
How would you assess current relations between the U.S. and Turkey? 
What is your assessment of Turkey's evolving relationship with Russia?

    Answer. For Turks, the Gulenist-inspired and probably organized 
military coup of July 15 is equivalent to our 9/11, in part because 
unlike earlier coups it was not organized or supported by the military 
top leadership, and saw military personnel indiscriminately mowing down 
unarmed Turkish civilians.
    What is going on now in retaliation is a major effort to arrest and 
try those involved directly in the coup or in the ``clandestine'' side 
of the Gulenist movement, as well as a much greater effort targeting 
hundreds of thousands of people allegedly linked to the more overt 
elements (education, banking, business, media, religion) of the 
Gulenist movement. These people typically lose jobs in the civil 
service or quasi-public professions. Such purges have been common after 
earlier upheavals and coups in Turkey, but there is little doubt that 
President Erdogan, rattled by his near assassination during the coup, 
is using these purges to strengthen his rule and intimidate opposition 
including in the media and among Turkish Kurdish groups.
    Relations between the U.S. and Turkey are very poor despite a 
seeming convergence of interests against ISIS, Iran and to some degree 
Russia. Erdogan and former President Obama had at the end a very chilly 
relationship. Major points of contention now are the Turkish request 
for extradition of Fetullah Gulen, the accused ring-leader of the July 
coup, who is a green card holder resident in Pennsylvania, and the U.S. 
support in the fight against ISIS for the YPG, seen by the Turks 
accurately as a subsidiary of the anti-Ankara Turkish Kurdish PKK 
insurgency. More generally, the Turks believe Washington did not live 
up to its commitments, first to help overthrow Assad, and second, to 
keep the YPG east of the Euphrates River in Kurdish areas. U.S. leaders 
are unhappy with Turkey's flirtation with Russia, but in fairness 
Turkey felt abandoned in Syria by the U.S. and after the fall of Aleppo 
decided it had to make the best possible deal with the winner.
    Turkey's relationship with Putin is one of necessity and 
convenience and is transactional in nature. The primary reason as noted 
just above was the fall of Aleppo as well as U.S. policy decisions. 
Turkey however has lucrative energy and other economic interests with 
Russia that influence its decision-making with Moscow. That said, 
Turkey and president Erdogan personally are very concerned about 
Russian encroachment into the region (and in the Black Sea, Caucasus, 
and Southeastern Europe) but feel the U.S. in the past has not shown 
equivalent concern. More concern about Russia (including its semi-
alliance with Iran) on the part of the U.S., some action even short of 
extradition concerning Fetullah Gulen, and a more balanced U.S. 
approach to the final battle against ISIS in Syria between the YPG/SDF 
and the Turks and their FSA allies, together could rectify much of the 
current strains in the relationship quickly.

    Question. What is the status of Iraq's energy sector?

    Answer. Iraq's success developing its extraordinarily large oil and 
eventually gas reserves is a credit to the Iraqi people and to the 
efforts of the international community and to the U.S. engagement in 
Iraq. Encouraged by the U.S. Iraq invited in western and other 
International oil and gas companies including Exxon and Chevron and 
many smaller U.S. energy sector firms to develop its energy sector. The 
KRG government did the same in the north.
    As a result Iraq today is the second largest OPEC oil producer, 
reaching levels including the KRG of over 4.5 million barrels/day 
produced by late 2016 (the OPEC quotas approved in November 2016 will 
reduce this by several hundred thousands of barrels/day at least 
theoretically), and well over 3.5 million barrels/day exported from the 
south and north. This has been one of the major factors (along with 
U.S. tight oil production) for the more than 50% fall in oil prices 
globally since 2014 and thus much less expensive gas at U.S. tanks, as 
well as a reduction of inflation world-wide.
    The Iraqis have significant problems with additional expansion of 
their southern fields to reach Saudi levels of 7-10 million barrels/day 
produced, beginning with delays in a salt water injection program to 
pump up to 10 million barrels of sea water into wells to increase 
efficiency and exploit fully hard-to-reach reserves. In addition, the 
KRG and Baghdad are repeatedly in political conflict over the nature of 
contracts let by the KRG, the percent of southern oil revenue `owed' to 
the KRG, and the KRG's effective control over the Kirkuk oil field and 
its exports since ISIS drove a physical wedge between Kirkuk and 
central Iraq. Currently they have reached with U.S. urging another 
limited compromise oil export and revenue policy but tensions remain.

    Question. As we consider optimal U.S. military posture in Iraq 
after the fall of Mosul, what lessons should we learn from the 
withdrawal of U.S. troops from Iraq in late 2011?

    Answer. First we have to be aware of the reasons why despite an 
Obama administration effort we were not successful:
    --Iranian interference: The U.S. did little to counter this, which 
ranged from lobbying in the Iraqi parliament to lobbing Improvised 
Rocket-Assisted Missiles at our bases and installations. If we attempt 
to leave troops behind after ISIS is defeated, which as noted above I 
have advocated, we will have to either intimidate the Iranians or 
convince them that any U.S. presence would be limited and not offensive 
(i.e., aimed at Iran) in nature.
    --Parliamentary endorsement of legal immunities for U.S. troops: 
This is a reasonable demand on the part of the U.S. but proved 
impossible to obtain from the Iraqi parties that made up the majority 
of the Iraqi parliament. All Iraqi parties except the Sadrists with 15% 
of parliamentary seats agreed that U.S. forces could stay on, but only 
the Kurdish parties with less than 20% of seats supported a 
parliamentary endorsement of legal immunities for U.S. troops. Such 
immunities understandably are usually a sine qua non for stationing of 
U.S. troops within foreign countries. The Iraqi government was willing 
to give written immunities, and has done so in fact in 2014 to secure a 
return of U.S. forces against ISIS, but such executive branch immunity 
can easily be challenged in a parliamentary system. If the U.S. does 
keep troops on in Iraq it will have to accept the ambiguous immunities 
provided by executive letter, as there is essentially no chance the 
Iraqi parliament would vote for them.
    --Popular resistance: Except among Iraq's 15-17% Kurdish population 
less than 20% of Iraqis polled indicated interest in having U.S. troops 
remain in Iraq, according to essentially all polls in the 2010-2011 
period. Iraqis may have learned from the 2014-17 experience that 
American forces are essential to their security, or perhaps they have 
not, under the influence of Iranian and rabid nationalist propaganda.
    --Direct Presidential Engagement: President Obama was less engaged 
personally with the effort to keep troops on, although he formally 
accepted the recommendation to seek an enduring troop presence. Such 
engagement however is essential both to convince Iraqi leaders, and to 
take the difficult steps outlined above--keeping American troops in an 
ambiguous situation in terms of legal immunities; limiting the size, 
location and missions of U.S. troops; and dealing in one or another way 
with Iranian objections.
                               __________

                 Responses of Jeremy Bash to Questions 
                    Submitted By Senator Todd Young

    Question. What are your detailed assessments of the State 
Department's Global Engagement Center?

    Answer. I have not performed a detailed assessment of the State 
Department's Global Engagement Center. I have worked in the past with 
the recent leader, Mr. Michael Lumpkin, whom I think very highly of. He 
was a strong and capable leader when I served with him at the 
Department of Defense. The mission of the center--to coordinate USG 
counterterrorism messaging--is sorely needed. ``Winning the argument'' 
is a crucial piece to winning the battle against terrorist networks. 
From anecdotal evidence, it appears to me that the Center is focused on 
the correct activity--specifically empowering third party voices who 
have the background and credibility to counter jihadist narrative and 
propaganda. I also have a sense that the Center would benefit from 
increased funding and support, but I have not performed an assessment 
of its resources or staffing.

    Question. As ISIS loses territory in Iraq and Syria, should we 
expect many ISIS fighters to attempt to flee and return to their home 
countries or to travel to ungoverned or weakly governed areas 
elsewhere? Should we expect them to travel to the U.S. or Europe in 
order to conduct terrorist attacks? How will most of the ISIS fighters 
go about fleeing Iraq and Syria? Will they flee through Turkey? Is 
Turkey doing all that it can to prevent this terrorist exodus? How can 
the U.S. help capture or kill these terrorists as they flee Iraq and 
Syria?

    Answer. It is reasonable to assume that as ISIS loses territory, 
some of its fighters will attempt to flee to Europe, North Africa, and 
possibly farther. Those who attempt to come to the United States likely 
would do so with a specific operational plan. Turkey could provide one 
route, but there are, in theory, multiple routes that an ISIS fighter 
might employ. The most effective way to penetrate plots and counter 
threats is to focus intelligence collection on specific targets and 
work with the intelligence services of countries in the region to track 
the travel of suspected ISIS operatives. If the terrorist is traveling 
through Europe, the interdiction is likely going to occur by the 
intelligence and law enforcement agencies of the host government.

    Question. Do you both believe that there will be no durable defeat 
of ISIS in Syria if the U.S. agrees to a Russian demand to keep Assad 
in power and fails to insist on the establishment of an inclusive 
government in Damascus that protects rather than murders its own 
people?

    Answer. Yes, I do believe that.

    Question. Do you both believe it is in U.S. national security 
interests to retain U.S. military personnel in Iraq after the fall of 
Mosul, if so why? How many troops, where, and for what purpose? Do you 
believe the Iraqi government will want to keep U.S. troops in Iraq 
after the fall of Mosul? Do you believe Iran will try to expel the U.S. 
military presence in Iraq after the fall of Mosul?

    Answer. I believe that it will likely be necessary to have a 
military presence in Iraq for the foreseeable future. The presence does 
not have to be large, and its role can be circumscribed carefully. As 
for whether the Iraqi government will welcome such a presence, I 
believe it will. Iran will continue to work against U.S. interests 
across the region, including in Iraq. Iran's sponsorship of proxies 
that may attack U.S. forces is a contingency for which U.S. forces 
should prepare.

    Question. Do you believe we should establish safe zones in Syria? 
What are some of the benefits and challenges associated with 
establishing safe zones in Syria? Where in Syria do you believe these 
safe zones should be located? Who would defend and secure these safe 
zones on the ground? Would you support the U.S.-led coalition 
protecting these safe zones from the air?

    Answer. Probably so. However, I would want a current briefing from 
military leaders before suggesting the specific contours or location. 
In general, I believe the U.S. could do more to protect innocent 
civilians. I would support the U.S.-led coalition protecting these safe 
zones.

    Question. As areas in and around Mosul are liberated, how is the 
Iraqi government doing managing the behavior of the Shia Popular 
Mobilization Forces (PMF) to avoid the mistreatment of Sunni residents 
that could make them susceptible to ISIS recruitment? When ISIS 
controlled areas are liberated, how is the Iraqi government doing in 
rapidly restoring government services and establishing inclusive 
governance? Do you agree that the Iraqi government's ``Phase IV 
operations'' in Sunni majority areas are essential to the durable 
defeat of ISIS in Iraq? How can or should the State Department and 
USAID support the Iraqi government's efforts to establish responsive 
government services and inclusive governance for Sunni populations to 
prevent the return of ISIS?

    Answer. Yes, I share the view that the Iraqi government must do a 
better job of including Sunnis in the governance of Iraq going forward. 
As the Iraqi government ``holds'' the territory liberated from ISIS, it 
is essential that the people in those liberated areas have faith in the 
government agencies controlling the territory. This faith will be 
undermined if Iraqi government officials allow Shia elements to 
marginalize and persecute the Sunni. Working with the Iraqi government 
on countering sectarianism is one of the most important roles that the 
U.S. government can play in Iraq.

    Question. What do you believe were the main weaknesses of the Obama 
administration's approach to ISIS? What should the U.S. be doing in 
Iraq and Syria that we are not?

    Answer. As I have testified, I believe that the military campaign 
against ISIS in Syria and Iraq should now be intensified. I also 
believe, however, that the military campaign in Syria and Iraq is only 
one dimension on of the problem. ISIS is a global threat. As such, we 
must redouble our effort to work with allies and partners--including in 
Europe--on issues such a intelligence sharing and data correlation so 
that we can track travelers and penetrate plots. We also need to do a 
better job countering ISIS's message, primarily by identifying and 
leveraging Arab and Muslim voices in the region who can refute ISIS's 
claims about the religious obligation of engaging in terrorism.

    Question. As ISIS loses territory in Iraq and Syria, shouldn't we 
expect it to transform into a more traditional terrorist insurgency in 
both countries? What should the U.S. and our partners be doing now to 
prepare for that predictable development?

    Answer. The U.S. government should plan for a scenario in which 
remnants of ISIS live on as an insurgency force for many years. Most 
importantly, the U.S. should plan for and resource a long-term 
presence--not necessarily military but probably State Department-led--
to help with governance and anti-insurgency activity.

    Question. Is Iraqi Prime Minister Abadi in danger of losing his 
position? Why? What would be the implications of that for U.S. 
interests?

    Answer. I do not believe I have the requisite information to 
predict that Abadi is in position of losing his position.

    Question. In order to durably defeat ISIS and to prevent the 
emergence of other Sunni insurgent and terrorist groups, do you believe 
it is important for Sunnis in Iraq and Syria to feel fully represented 
in Baghdad and Damascus? Do you believe a failure to establish such 
governance will ensure that ISIS and other Sunni insurgent groups will 
continue to find a sympathetic population from which to recruit?

    Answer. Yes.

    Answer. Yes.

    Question. What is your assessment of the post-coup crackdown there? 
How would you assess current relations between the U.S. and Turkey? 
What is your assessment of Turkey's evolving relationship with Russia?

    Answer. (Assuming the first question refers to Turkey:) I think it 
would be a mistake for Turkish leadership to go overboard in purging 
the Turkish military. Turkey needs a strong and professional defense 
force, and Erdogan should--in my view--focus more on addressing the 
concerns that led to the coup attempt, rather than trying to ensure 
that all of his opponents are imprisoned. The U.S. and Turkey have a 
strong foundation upon which to build an enduring alliance. Turkey is a 
NATO ally. In broad strokes, we share many of the same concerns in the 
region, including regarding terrorism and threat posed by the Assad 
regime. As for Turkey's relationship with Russia, I do not put much 
stock in it. Turkey and Russia have strategic interests that collide. 
Russia would like to prop up Assad, and Russia would like to peel 
Turkey away from NATO. As such, the warming of Turkey-Russian relations 
will have its limits. Turkey will soon see Russia's true intentions are 
to undermine the West and maintain its proxy state in Syria.

    Question. What is the status of Iraq's energy sector?

    Answer. Iraq has resources that could help it become a leading 
energy exporter--and, if managed properly, those funds could generate 
economic development for Iraq. I strongly disagree with those who 
suggest that the United States should have, or should in the future, 
``take Iraq's oil.''
                               __________

         Responses of the Honorable James Jeffrey to Questions 
                 Submitted By Senator Edward J. Markey

    Question. Over the past year, I have frequently expressed concern 
that tactical successes against ISIS will not bring about its strategic 
defeat unless:
    1. Military operations are done in ways that not only avoid harming 
civilian populations, but pro-actively protect them; and
    2. Our ground-force partners and we plan for and aggressively 
broker political arrangements among divergent groups in the areas where 
we are fighting ISIS to protect the people, provide necessary services, 
and restore and support legitimate local government.
    Last month after Iraqi forces pushed ISIS out of East Mosul initial 
reports showed children returning to school, but more recent reports 
raise serious concerns. On Friday, Reuters reported that people in West 
Mosul feel abandoned by the government, which they say is doing little 
to provide assistance with immediate post-conflict relief and 
stabilization, and is obstructing former local police officers who want 
their old jobs back.
    As we look toward West Mosul, the UN refugee agency predicts that 
250,000 people could flee, on top of the 160,000 who have already fled 
the fighting in East Mosul.
    In my view the most crucial political question presented in the 
battles against ISIS is what our partners and we plan for and do 
before, during, and after battle to address humanitarian requirements, 
resolve local political conflicts, and restore and support legitimate 
local authorities.
    What is your perspective on the adequacy of what the Iraqis and we 
are doing to plan along these lines, and on the implementation of such 
plans during and following offensive operations against ISIS?

    Answer. This is a difficult question. Delaying military operations 
to protect civilian populations and to ensure all elements are in 
place, for initial relief of, and particularly for longer term 
economic, security and political care for, liberated civilian 
populations could well be a mistake. First, there is a military price 
to pay for delay, as well as a political/diplomatic cost. A campaign 
against ISIS is a serious endeavor that fully engages the U.S. and 
other states, and necessarily distracts Washington and its famously 
limited `bandwidth,' as well as diverts concrete military and 
diplomatic resources, from potentially equally important issues (Iran, 
North Korea, China, Russia) which don't involve immediate life and 
death decisions. There is thus a benefit beyond ISIS to finishing this 
phase of the struggle with it quickly.
    Second, while the above holds in most circumstances, it is 
particularly salient when a population is under the sway of ISIS. 
Having been on the scene and dealing with civilians traumatized by its 
predecessor, al Qaeda in Iraq, repeatedly, I believe the messiest 
liberation, assuming mass casualties are avoided, is better for the 
civilian population (totally apart, as noted above, from the other 
advantages of defeating ISIS) than leaving it in the horrific hands of 
ISIS. The reports I have read of the treatment of the population in 
West Mosul under siege documents this, and the cruelty of ISIS as long 
as the siege continues is compounded by the lack of foodstuffs and 
medicine.
    Third, Iraq (or other states in the Middle East, with the exception 
of Turkey and Israel) usually never get really good at dealing with 
liberated populations. We have seen many foul-ups and inadequate relief 
in other liberated areas. But in each case the Iraqi government effort, 
assisted as it should be by the U.S., other governments, and NGO's, has 
turned out to be `good enough' to keep people sufficiently nourished, 
housed, and secured to allow a gradual return to their homes.
    Again, such actions are terribly inadequate in some cases, usually 
riddled with incompetence and inefficiency, and occasionally by 
deliberate retaliation, but that unhappy set of circumstances must be 
considered not in isolation but in comparison to (1) the realistic 
standard of `best' under such conditions (even when the U.S. military 
was leading relief and rehabilitation, e.g., after the battles for 
Najaf and Fallujah in 2004, `best' was not much better than what the 
Iraqis have been doing); and (2) the costs, first to the civilian 
population, and then to the broader military campaign and diplomatic 
goals, of allowing such considerations to delay defeating an enemy like 
ISIS and leaving hundreds of thousands of quasi-hostages in their 
brutal hands during a siege.

    Question. In his memorandum directing Secretary Mattis to develop a 
new plan to defeat ISIS President Trump required him to recommend, 
``changes to any United States rules of engagement and other United 
States policy restrictions that exceed the requirements of 
international law regarding the use of force against ISIS.''
    Presumably, the President is thinking of reducing the weight that 
commanders give to the risk of civilian casualties. This is of 
particular concern in a place like West Mosul, which is very densely 
populated.
    I am very concerned that we not step onto a slippery slope toward 
the type of military operations that were all too common in the 
twentieth century, that Syrian and Russian forces displayed a few weeks 
ago in Aleppo, and that President Putin used in Grozny during Russia's 
brutal campaign in Chechnya seventeen years ago.
    What is your perspective on the risks inherent in President Trump's 
requirement that Secretary Mattis recommend changing the rules of 
engagement in Iraq and Syria? How would the people who we seek to 
liberate from ISIS perceive such changes, considering that they are the 
same people most likely to be hurt if our commanders give less weight 
to the risk of civilian casualties when making targeting decisions?

    Answer. Military effectiveness, political results (to which 
military efforts must be ultimately subordinate), and treatment of 
civilians on battlefields are all in dynamic tension. Discussions with 
senior U.S. military and Iraqi officials involved in the campaign 
against ISIS indicate that the Obama administration rules of engagement 
(ROE) may have been so tight as to have impacted adversely operations. 
The ISIS seizure of Ramadi in 2015 has been cited in this regard. To 
some degree ROE has been loosened over the past 14 months, thus 
President Trump might have been focused on earlier ROE.
    Nevertheless, there is still some indication that ROE are too 
tight. Given the dynamic tensions related to this question, it is 
important to first lay out the range of considerations.
    Since World War II the United States has not engaged in the 
deliberate targeting of civilian populations that you cited in regard 
to Russian bombing of Aleppo. Those acts are violations of the Geneva 
Conventions and seen as such by the U.S. military. I am confident we 
can rule out any Department of Defense recommendation to use anything 
like those tactics. On the other hand, even the most meticulous 
attention to avoiding civilian casualties--and the ROE of the Obama 
administration ROE against ISIS, against terrorist targets regionally, 
and in Afghanistan, come as close to `meticulous attention' as I am 
aware of related to a force seriously conducting combat--by that 
administration's own admission, have led to the deaths of hundreds of 
civilians.
    The absolute standard of no strike unless one is sure of no 
civilian casualties (essentially the standard used by the Bush 
administration in drone strikes against terrorists), is not possible in 
`normal' rapid combat. (i.e., in drone strikes an abort, usually not 
noted by the target, does not mean the strike cannot be done later. But 
under normal combat conditions protecting ones own or allied forces, 
destroying enemy personnel, and seizing ground, all require rapid 
action.)
    A concern about the Obama ROE was the levels of command and 
clearance that were required before a strike could be approved. This 
delayed strikes, at times with tactically significant costs. Easing of 
those preconditions, while still maintaining policies to avoid civilian 
casualties by restricting the type of ordnance, use of warnings before 
strikes, and prioritizing intelligence collection to the status of 
civilians near strikes, all make sense.
    The issue of political impact of civilian casualties at any level 
is also complicated. Tens of thousands of French civilians were killed 
by U.S. bombing during the campaign to liberate France, yet the French 
population was extremely welcoming of American forces. Again, the 
dynamic of final ends and relative costs are in play between results of 
military action as seen by a population and civilian casualties, just 
as between military results and `day after' readiness to care for 
civilians liberated as discussed above. U.S. strikes in 2015 and 2016 
in Kunduz, Afghanistan led to significant civilian casualties, and an 
investigation of a strike on a hospital, but little outcry from the 
population or from the Afghan Government. Whereas typically strikes in 
the Afghan countryside especially in Pashtun areas led to strong local 
and governmental reactions.
    In the case of ISIS many civilians in Mosul might opt for a limited 
increased risk of casualties (they have been very low in this campaign 
compared to the numbers of civilians near the fighting) in return for 
more rapid liberation from ISIS, similar to the population of Kunduz.

    Question. In his prepared testimony, Mr. Bash stated that, ``We 
must keep our focus on the travel of foreign fighters, and work 24/7 
with our European allies and partners to track potential extremists, 
penetrate the plots, and stop them.''
    Secretary of Defense Mattis, in testimony at his confirmation 
hearing before the Senate Armed Services Committee, stated that Russian 
President Vladimir Putin is ``out to break NATO.'' It is also clear 
that President Putin is working to undermine the European Union through 
intelligence-led influence campaigns to help extreme nationalist, anti-
EU parties in European elections, much as he did in our election last 
year.
    Meanwhile, President Trump has called NATO obsolete and expressed 
sympathy for the idea of EU disintegration.
    It seems to me that while it is very important for European allies 
to cooperate with us, it is critically important for them to cooperate 
closely with each other, particularly with respect to their security 
and justice systems.
    How do you rate the risk that President Putin's attacks on European 
integration will undermine cooperation against ISIS? How does President 
Trump's anti-NATO and anti-EU rhetoric affect that risk? If NATO or the 
EU disintegrate, will that make it easier or more difficult for ISIS to 
plan and carry out attacks in Europe or the United States without being 
detected and apprehended beforehand?

    Answer. Our role--all in all extraordinarily positive--in the world 
since 1940 has been placed at risk by President Putin's effort to 
replace the rule-of-law global order based international system with a 
return to rapacious 19th century great power competition, which 
produced World Wars I and II.
    If President Trump does not recognize that then his foreign policy 
efforts, and surely his goal to `make America great,' will fail. This 
does not preclude deals or cooperation with Moscow, but does require 
that we recognize our benefits from and interest in this international 
order and under no circumstances accept a weakening of it in return for 
tactical Russian concessions or facilitation on specific issues.
    Key to that order is our system of alliances and international 
organizations. NATO and the EU are at the center of them. They provide 
the operational levers for the Europeans--with a population more than 
50% greater than ours, and a GDP equal to ours, to mobilize themselves 
in support of our efforts around the world, be it joint action in 
Afghanistan or against ISIS, earlier in the Balkans, or against Russian 
aggression in the Ukraine or earlier in Georgia. Putin realizes this, 
and also recognizes that Europe is in certain respects the most 
vulnerable of his ``enemies,'' so he is putting much effort into 
undermining European institutions.
    Even rhetoric on the part of the U.S. against the EU or NATO (and 
so far we have not seen or heard of concrete actions taken or pending) 
demoralizes those who believe in these institutions, and undercuts 
faith in the U.S. as a reliable, predictable partner. Obviously actions 
taken and not taken by the EU and by our NATO European partners can 
weaken ties with the U.S., and more persuasion or even pressure on them 
could be an effective strategy. But given the emotional, psychological 
and historical factors at play, U.S. questioning of its own, or EU or 
NATO state commitments to the ``Atlantic Community'' beyond a certain 
point will undercut the ability of European states through NATO and the 
EU to cooperate with the U.S.
    Specifically, NATO and the EU provide mechanisms for common action 
against terrorists, including ISIS. Of particular concern is European 
military commitment in the anti-ISIS coalition, which at present is 
considerable, and intelligence sharing, which is essential for 
protection of both North America and NATO Europe.
                               __________
          Letter to Hon. Rex Tillerson from Senator Todd Young
          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
